<html>
<title> - CENSUS 2010: ASSESSING THE BUREAU'S STRATEGY FOR REDUCING THE UNDERCOUNT OF HARD-TO-COUNT POPULATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




     CENSUS 2010: ASSESSING THE BUREAU'S STRATEGY FOR REDUCING THE 
                UNDERCOUNT OF HARD-TO-COUNT POPULATIONS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 23, 2009

                               __________

                           Serial No. 111-55

                               __________

Printed for the use of the Committee on Oversight and Government Reform





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
57-216 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      PATRICK T. McHENRY, North Carolina
CAROLYN B. MALONEY, New York         LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   JOHN L. MICA, Florida
    Columbia                         JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
                     Darryl Piggee, Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2009...................................     1
Statement of:
    Mesenbourg, Thomas L., Acting Director, U.S. Bureau of the 
      Census; Robert Goldenkoff, Director, Strategic Issues, U.S. 
      Government Accountability Office; Stacey Cumberbatch, city 
      census coordinator, city of New York; and Jeff Tarakajian, 
      executive vice president, DraftFCB.........................    15
        Cumberbatch, Stacey......................................    66
        Goldenkoff, Robert.......................................    23
        Mesenbourg, Thomas L.....................................    15
        Tarakajian, Jeff.........................................    42
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri:
        Chart on mail response rates.............................    75
        Prepared statement of....................................     3
    Cumberbatch, Stacey, city census coordinator, city of New 
      York, prepared statement of................................    68
    Goldenkoff, Robert, Director, Strategic Issues, U.S. 
      Government Accountability Office, prepared statement of....    25
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........     7
    Mesenbourg, Thomas L., Acting Director, U.S. Bureau of the 
      Census, prepared statement of..............................    17
    Tarakajian, Jeff, executive vice president, DraftFCB, 
      prepared statement of......................................    44
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California:
        Chart on response rates..................................    88
        Prepared statement of....................................    10

 
     CENSUS 2010: ASSESSING THE BUREAU'S STRATEGY FOR REDUCING THE 
                UNDERCOUNT OF HARD-TO-COUNT POPULATIONS

                              ----------                              


                         MONDAY, MARCH 23, 2009

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Norton, Watson, McHenry, and 
Chaffetz.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Michelle Mitchell and Alissa Bonner, professional 
staff members; Charisma Williams, staff assistant; Leneal 
Scott, IT specialist; Kellie Shelton, intern; John Cuaderes, 
minority deputy staff director; Dan Blankenburg, minority 
director of outreach and senior advisor; Adam Fromm, minority 
chief clerk and Member liaison; Chapin Fay, minority counsel; 
and John Ohly, minority professional staff member.
    Mr. Clay. The Information Policy, Census, and National 
Archives Subcommittee will come to order. Let me welcome you to 
today's hearing entitled, ``Census 2010: Assessing the Bureau's 
Strategy for Reducing the Undercount of Hard-to-Count 
Populations.''
    This hearing is a followup to the subcommittee's July 2008 
hearing on the ``2010 Census Integrated Communications 
Campaign.'' We have with us today invited distinguished 
colleagues who have asked to participate in this hearing, they 
will be here shortly. I will ask unanimous consent that they be 
allowed to participate.
    Without objection, the chairman and ranking minority member 
will have 5 minutes to make opening statements followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition. Without objection, Members and witnesses 
may have 5 legislative days to submit a written statement or 
extraneous materials for the record.
    I will begin with an opening statement. The purpose of 
today's hearing is to examine the Census Bureau's strategies 
for two aspects of the Integrated Communications Campaign. One, 
the Partnership Program and paid advertising. We seek answers 
to the questions of, one, how will the communications plan 
decrease the undercount and increase the mail response rate of 
hard-to-count communities. Two, whether the campaign messaging 
will generate community support for the census. We will also 
look at funding for the 2010 census, including the $1 billion 
allocated in the stimulus bill.
    Census day 2010 is nearly 1 year away, yet as we learned in 
our hearing on March 5th, there is still much work to be done 
by the Bureau to put its operation plans in place. The Regional 
Partnership Program could be very helpful in ensuring that 
everyone is counted. The program is credited with attributing 
to the success of the 2000 census. According to the report of 
the GAO, key census-taking activity, such as recruiting 
temporary Census workers and encouraging people to complete 
their questionnaire, would have been less successful had it not 
been for the Bureau's aggressive partnership efforts.
    The paid advertising program could also play a key role in 
reducing the undercount as it did in 2000. The Bureau has plans 
to use national and local media to get the word out about the 
census and encourage participation. Media buys should seek to 
reach diverse markets in the most effective and cost-efficient 
manner possible. We will find out today how the Bureau plans to 
accomplish this goal.
    I thank all of our witnesses for appearing today and look 
forward to their testimony. And I want to thank Ms. Watson for 
joining us today. And I want to go to my friend and the ranking 
minority member, Mr. McHenry, of North Carolina. I know you 
just got here.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. McHenry. I am a little winded.
    Mr. Clay. I can imagine. Take your time. Well, take your 
time.
    Mr. McHenry. Thank you, Mr. Chairman.
    And thank you all for testifying today. Chairman Clay and I 
certainly have the same goal, which is to make sure that this 
is the best census in our Nation's history, the most accurate 
in our Nation's history. And an important function of that 
would be to reduce the undercount for this census. The Census 
Bureau's Regional Partnership Program, and advertising plan are 
part of an Integral Communications Campaign, aimed at reducing 
the 2010 undercount, reaching hard-to-count communities, and 
achieving a full-count decennial census.
    Reaching these communities is not only important but also 
required by the U.S. Constitution. A full-count census and 
actual numeration is specifically and firmly rooted in Article 
I of our Constitution. The economic stimulus bill included $1 
billion in additional funding for the Census Bureau with at 
least $250 million of that amount specifically designated by 
Congress for the Partnership Program and outreach to 
traditionally hard-to-count communities. The Partnership 
Program for the 2000 Census, involved more than 140,000 
organizations, and for 2010, the Bureau has already partnered 
with over 10,000 organizations and hired over 800 partnership 
staff. In order for such a large endeavor to succeed, rigorous 
oversight and transparency of funds and of participants is 
vitally important.
    In hiring temporary enumerators, the Census Bureau has 
testified it will conduct thorough FBI background checks that 
include fingerprinting. I think that is good reassurance for 
the public that when an enumerator comes to visit them, they 
can open the door and it is a law-abiding citizen on the other 
side. We must make sure the Bureau has comparable measures in 
place to hold organizations participating in the Partnership 
Program and their employees equally accountable for their 
actions.
    Furthermore, the Bureau should have clear guidelines and 
standards for the selection of partner organizations. It is 
important to ensure that contractors are awarded through a 
competitive process and not simply doled out, money doled out 
to anyone who applies, as well as monitor how and where money 
is spent by participating organizations. Accountability and the 
spending of these funds are obviously essential.
    Today's hearing presents an opportunity for the Bureau to 
describe the quality control measures in place to implement, to 
fully implement this plan in their hiring of all field workers 
and enumerators and the field work process in general.
    As I said before, Chairman Clay and I share the goal of 
ensuring that every individual in America will be counted once, 
only once, and where they live on census day 2010. A 
transparent accountable partnership process and strong 
advertising campaign are fundamental to achieving it. I also 
recognize that the list of folks testifying today is not as 
full and complete as we had hoped in terms of our request that 
the head of the Partnership Program testify about the roles 
that they are fulfilling. We had hoped to hear directly from 
the individual that is overseeing hundreds of millions of 
dollars worth of our taxpayer dollars and that we believe is 
essential to making sure that we reduce the undercount and 
reach hard-to-reach communities.
    I think it is unfortunate that we don't have the division 
head testifying today. I think we will have many specific 
questions that Mr. Mesenbourg, that we will need to get 
specific answers from. And the reason why we wanted the 
division head to testify is so we can get those specific 
questions. We certainly respect you. We certainly respect the 
duties that you fulfill, but we also want to make sure that we 
get specific answers so that we can have the proper policies in 
place and the funding in place to reduce this undercount.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Clay. Thank you Mr. McHenry. I will now go to Ms. 
Watson if you have an opening statement.
    Ms. Watson. Thank you so much, Mr. Chairman. And I think 
holding today's hearing is very, very important as we examine 
the Census Bureau's strategy for reducing the undercount of 
traditionally hard-to-count populations in the 2010 census. I 
look forward to hearing the challenges and the goals shaping 
the Bureau's Integrated Communications Campaign to promote the 
census, improve participation, and decrease the differential 
undercount.
    Since the establishment of the decennial census in 1790 
every census has experienced an undercount. And particularly in 
my district, certain areas run a double-digit undercount. 
According to the Government Accountability Office, the 2000 
census missed an estimated 2 percent of the U.S. population, a 
disproportionate number of which were minorities, lower-income 
households and children. My district in particular has 
traditionally been undercounted due to a lack of engagement 
with the local constituencies. This undercount is troubling 
because, without accurate population data, it is important to 
ensure that the Americans have representation in State and 
Federal Government and that Federal grants are targeted to 
where they are needed the most.
    The American Recovery and Reinvestment Act of 2009 
authorized $501.5 billion worth of new spending measures to 
revitalize the American economy while assisting those most 
impacted by the recession. This unprecedented investment in our 
future makes the need for the 2010 census to be as thorough and 
accurate as possible, even greater, as the success of the 
stimulus relies upon complete population data to ensure funds 
are directed efficiently and equitably.
    The Census Bureau's Integrated Communications Campaign 
reduced the undercount rate for the 2000 census relative to 
1990 and, according to the GAO, appears to be comprehensive and 
to be integrated. Success now depends on the ability of the 
Bureau to move effectively from the planning to the operational 
phase while incorporating best practices and lessons learned 
from the 2000 census to translate increased public awareness 
into actual participation.
    Mr. Chairman, I would like to thank all of the panelists 
who have come here today for their cooperation with today's 
proceedings, and I look forward to hearing more details about 
the Partnership Program and the target media strategy of the 
Integrated Communications Campaign as we monitor efforts to 
reduce the undercount in the 2010 census.
    Thank you so much, and I yield back the remainder of my 
time, Mr. Chairman.
    [The prepared statement of Hon. Diane E. Watson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you, Ms. Watson, for that opening.
    Now I am going to go to Mr. Chaffetz of Utah. You are 
recognized for an opening statement.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    I appreciate you calling this hearing. It is important that 
in the discharge of the constitutional duty in conducting this 
census that we all be vigilant in the expenditure of dollars 
and the time and effort and the call upon the American people 
to participate willingly in helping us to make sure that we do 
not undercount the population of the United States of America, 
nor do we overcount it. So I appreciate the witnesses who are 
willing to come here today and participate in this hearing. I 
thank them.
    I also want to make sure, as we move forward and we discuss 
the issues that affect the census, that we also deal with the 
American people's money in a transparent and accountable way. 
There are significant dollars that will be flowing out the 
door, and I want to make sure that we have safeguards in place 
to monitor the expenditure of those dollars and that the 
American people have the ability to understand where and how 
those dollars are spent.
    I also have some questions and concerns about how and who 
we would partner with in order to execute this so that we have 
the faith of the American people that it is being done in an 
transparent way; that they have the safety and security of 
knowing that their vital information is dealt with 
appropriately. And I do have some questions that I would 
appreciate you addressing regarding the Partnership Program 
specifically.
    Again, I thank you for being here today and thank the 
chairman for calling this hearing. Thank you.
    I yield back my time.
    Mr. Clay. Thank you so much. Thank you for your statement.
    Let me now introduce our panel. We will hear first from Mr. 
Thomas Mesenbourg, Acting Director of the U.S. Census Bureau.
    Thank you for being here.
    Our next witness will be Mr. Robert Goldenkoff, Director of 
Strategic Issues at the GAO. Mr. Goldenkoff's responsibilities 
include directing work on the 2010 census.
    Good to see you again.
    Our third witness will be Mr. Jeff Tarakajian, executive 
vice president of DraftFCB, the prime contractor on the 2010 
Census Integrated Communications Campaign.
    So good to see you again, Jeff.
    Our final witness will be Ms. Stacey Cumberbatch, the city 
census coordinator for the city of New York. Ms. Cumberbatch is 
responsible for managing the execution of Census Operations in 
the city.
    Let me welcome you Ms. Cumberbatch, and all of you, to our 
hearing today.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify.
    [Witnesses sworn.]
    Mr. Clay. Thank you. Let the record reflect all of the 
witnesses answered in the affirmative.
    Each of you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The yellow light will indicate that it is 
time to sum up. The red light will indicate that your time has 
expired.
    Mr. Mesenbourg, you may begin with your opening statement.

   STATEMENTS OF THOMAS L. MESENBOURG, ACTING DIRECTOR, U.S. 
 BUREAU OF THE CENSUS; ROBERT GOLDENKOFF, DIRECTOR, STRATEGIC 
     ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; STACEY 
  CUMBERBATCH, CITY CENSUS COORDINATOR, CITY OF NEW YORK; AND 
      JEFF TARAKAJIAN, EXECUTIVE VICE PRESIDENT, DRAFTFCB

               STATEMENT OF THOMAS L. MESENBOURG

    Mr. Mesenbourg. Chairman Clay, Ranking Member McHenry, 
members of the subcommittee, I appreciate the opportunity to 
provide you with an update on the Census Bureau's 2010 
Integrated Communications Program.
    Our 2010 goal is to count everyone, no matter how difficult 
or challenging that task may be. An insightful, engaging, and 
effective Communications Campaign is an essential component of 
a successful census. The 2010 Communications Program is 
multifaceted, employing and integrating paid advertising, 
public relations, a very robust Partnership Program, and a 
Census in Schools component. The campaign uses multimedia to 
reach people by television, radio, magazine, newspapers, 
outdoor and commuter media and the Internet and through trusted 
voices in the local communities.
    The 2010 Communications Campaign is data-driven, using 
detailed track level on mail-back response rates from census 
2000 and updated household characteristics to identify the 
hard-to-count segments of our population within media markets 
and local communities. This information will help provide the 
right message in the right media in the appropriate language at 
the right time. The hard-to-count track level information was 
used to segment the population into eight relatively 
homogeneous groups or clusters. Five of the clusters represent 
hard-to-count populations, and they will be targeted during 
every phase of the Communications Campaign. Decisions related 
to budget allocations and media buys use the hard-to-count 
scores. The advertising campaign includes a national and a 
local component.
    With the addition of $100 million in stimulus funding for 
advertising, our preliminary estimate allocates $63 million for 
the National Campaign. The National Campaign is designed to 
reach all persons who consume media in English, regardless of 
race or ethnicity; $82 million will be spent on local 
advertising, and that is directed at the harder-to-count 
populations. The local targeted advertising delivers messages 
in local, ethnic media, in language and in culture.
    The Census in Schools Program will be national in scope 
with an emphasis on hard-to-count populations. This program 
encourages students to tell their parents about the importance 
of the census. The program provides every school with teaching 
guides, lesson plans, maps, brochures and take-home materials 
in English and in Spanish.
    Now, while paid advertising can educate, inform and 
motivate households and individuals, census 2000 demonstrated 
that Census Bureau partners at the national and local levels 
serve as powerful and trusted advocates that can effectively 
reach segments of the population not persuaded by advertising. 
Partnerships will be integrated with all other communication 
channels, including advertising, broadcast and print media, 
internet initiatives and the Census in Schools Program, with 
the aim of creating positive messages about the 2010 census in 
hard-to-count communities.
    Staff in the Census Bureau's 12 regional census centers 
began work with key stakeholders in mid-2008 when 120 
partnership staff were mobilized to engage local and State 
governments, tribal leaders, faith-based and community-based 
organizations to support the census through the establishment 
of Complete Count Committees, an effective and proven 
initiative. We now have 680 local partnership specialists hard 
at work recruiting trusted local leaders who will use their 
influence and networks to motivate their communities to fully 
participate in the 2010 census.
    Currently more than 13,000 organizations have made 
commitments to partner with the U.S. Census Bureau. Stimulus 
funding will permit us to add an additional 2,000 partnership 
staff. Partnership staff, like all of our field staff, will be 
hired locally. They know the neighborhood, the challenges and 
the trusted voices in the community. Mobilizing a larger and 
better trained cadre of partnership staff and partners will 
help us meet the challenges of counting an increasingly diverse 
population.
    Mr. Chairman, our Integrated Communication Campaign is well 
positioned to educate, inform, motivate and mobilize our 
Nation's households to participate in the 2010 census. A 
complete and accurate 2010 census is our highest priority, and 
we are determined to produce a census count that fairly 
represents everyone in our Nation. Thank you.
    [The prepared statement of Mr. Mesenbourg follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you, Mr. Mesenbourg.
    And we will go to Mr. Goldenkoff now. You may proceed with 
your statement.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Thank you, Mr. Chairman, Mr. McHenry and 
members of the subcommittee. Thank you for the opportunity to 
be here today to provide a progress report on the Census 
Bureau's Integrated Communications Campaign.
    The campaign is a critical component of the census because 
it is aimed at boosting participation, especially among 
traditionally hard-to-count groups. Funding for the 
Communications Campaign received a substantial boost under the 
recently enacted American Recovery and Reinvestment Act of 
2009. Among other things, the act provided up to $250 million 
in additional funding for outreach efforts to hard-to-count 
populations. This is a 61 percent increase over the $410 
million the Bureau had originally budgeted for its 
communication effort.
    As requested, my remarks this morning focus on the status 
of the campaign's key components, including partnerships with 
governmental and other organizations; paid advertising in 
public relations; and Census in Schools, a program designed to 
reach parents and guardians through their school age children. 
In reviewing these components, this much is clear: If 
implemented as planned, the Communications Campaign will help 
position the Bureau to address the undercount.
    However, most of the activities we examined are in the 
planning or early implementation stages, and considerable work 
lies ahead. Future success will depend in part on how well the 
Bureau incorporates lessons learned and best practices from the 
2000 census and takes other steps to enhance performance and 
accountability.
    Importantly, the Communications Campaign is focused on 
hard-to-count populations. As one example, Draft FCB, the 
contractor responsible for orchestrating the campaign, worked 
with the Bureau to segment the population into distinct 
clusters using data from the 2000 census that have correlated 
with a person's likelihood to respond. Each cluster was given a 
hard-to-count score, and the Bureau's communications efforts 
are to be targeted to those clusters with the highest scores.
    With respect to the campaign-specific components, the 
Bureau's Partnership Program is set to expand with additional 
funding under the Recovery Act. The Bureau had initially 
planned to hire 680 partnership staff for the 2010 census and 
achieved that level earlier this year. However, funding for the 
Recovery Act will enable the Bureau to hire around 2,000 
additional partnership staff over the next few months. By 
comparison, the Bureau employed around 600 partnership staff 
for the 2000 census.
    Now, on the one hand, the higher staffer levels will enable 
the Bureau to better support local partnership efforts. On the 
other hand, it will be important for the Bureau to have the 
appropriate management infrastructure in place to hire, train, 
deploy, and supervise these additional personnel.
    Further, given the current state of the economy, the 
partners' ability to support the census is unclear. State and 
local governments, as well as community organizations, may not 
have the budget, staff or time to aggressively promote the 
census.
    With respect to paid advertising, the Bureau plans to use 
numerous media sources, including digital media, to reach a 
diverse audience. Further, the Bureau has completed market 
research to get an understanding of people's feelings about the 
census and the factors that inspire or hinder participation.
    The Census in Schools Program is also moving forward under 
a contract with Scholastic Publishing. The Bureau plans to 
spend around $11 million on this effort in 2010, compared to 
$17 million in 2000. The Bureau believes the reduced funding 
levels will not significantly affect the program because it 
plans to leverage materials developed in 2000. It also plans to 
better target its efforts and make more of the materials 
available electronically through the Bureau's Web site rather 
than through printed copies.
    However, as with the Partnership Program, the extent to 
which schools have the resources to disseminate this material 
is unclear, and it will be important that the schools do not 
perceive the Bureau's approach as a financial burden.
    In summary, the Bureau's Communications Campaign appears to 
be comprehensive and integrated. Further, the Bureau appears to 
be addressing some of the factors that will be important for 
success, including incorporating lessons learned from 2000 and 
targeting resources to hard-to-count populations.
    Nevertheless, while the Communications Campaign has made 
some important steps forward, considerable work lies ahead in 
getting all of the key components fully operational. Further, 
while the funding from the Recovery Act could help expand the 
Bureau's outreach and promotion efforts, less clear is the 
extent to which these additional funds will improve response 
behavior or which components of the campaign will yield the 
best results. So, therefore, in moving forward, it will be 
important for the Bureau to develop a spending plan for the 
additional funding it receives under the Recovery Act 
identifying, among other things, cost estimates of the 
activities to be funded, the objectives and outcome-related 
goals of the plan spending, and how the spending will help 
achieve those goals.
    Chairman Clay and Mr. McHenry, members of the subcommittee, 
this concludes my remarks, and I will be happy to answer any 
questions that you may have.
    [The prepared statement of Mr. Goldenkoff follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you so much, Mr. Goldenkoff.
    Mr. Tarakajian, you are up for 5 minutes.

                  STATEMENT OF JEFF TARAKAJIAN

    Mr. Tarakajian. Mr. Chairman, Mr. McHenry, members of the 
subcommittee, DraftFCB and our subcontractor partners thank you 
for the opportunity today to talk to you about the Integrated 
Communications Campaign for the 2010 census.
    Joining me today are colleagues from DraftFCB and our 
subcontractor partners: GlobalHue, D'Exposito and GlobalHue 
Latino.
    Since we spoke to you last on July 2, 2008, we remain on 
track to deliver the Communications Campaign to the marketplace 
in January 2010. Our work continues to be on budget, and we 
have made considerable progress. Let me give you a few 
highlights of that progress.
    First, the plan for the Integrated Communications Campaign 
was completed on July 15th and accepted by the Bureau in 
September 2008. We began field work for the Census Barriers, 
Attitudes, and Motivator Study [CBAMS], in July and reported on 
its findings in the fall of 2008. This study has proven very, 
very effective to messaging development and to media planning, 
particularly in understanding the attitudes and behaviors of 
the hard-to-count.
    From a creative and messaging-development standpoint, 
DraftFCB and our partners developed creative concepts during 
November and December of last year for all audiences. We 
produced rough versions of approximately 114 concepts. We 
traveled across the country gaining feedback in language and in 
culture from the audiences that will see these messages. In 
total, we spoke to approximately 1,400 people in 21 cities in 
the 48 contiguous States, Hawaii, Alaska, Puerto Rico, and the 
District of Columbia, representing all races and ethnicities. 
In April, we will be presenting a final report of findings to 
the Bureau, and we plan to begin production of the advertising 
in June.
    From a media standpoint, DraftFCB and our partners 
developed media plans for all audiences earlier this year. 
Currently we are issuing RFPs to media companies. We are also 
beginning to replan incorporating incremental dollars from the 
stimulus funding. These plans will be presented to the Bureau 
in April. While the timing of the upfront buy is very market-
driven, we expect it to conclude, at the latest, in August 
2009, which is the first phase of our buying. And the second 
buying phase for local media will occur in the fall of 2009.
    With regard to the Partnership Program, we provide 
promotional items and materials to support it. We have 
developed materials and items, both ourselves and our partners 
that have started arriving in regional offices in March and 
will continue through November. Materials consist of either 
action or awareness messaging. They will be available in 19 
languages. All of them will be available electronically and 
many printed as well.
    With regard to public relations, we have been supporting 
the activity of the Bureau's PIO office with initiatives 
including weekly media monitoring, media training, the 
development of media lists and logistics for the partner kick-
off meeting later this month.
    For Census in Schools, the Bureau accepted the plan in 
January. We have begun implementation with the mailing of an 
announcement letter to principals. As far as the contract 
overall is concerned, we are on track to reach our very 
aggressive goal of 40 percent of the contract spending to small 
business. Most of these opportunities will occur in fiscal year 
2009 and fiscal year 2010 in connection with the local and 
national media buys.
    In summary, at the risk of stating the obvious, the 
planning and implementation of the campaign is an enormous 
effort. We fully recognize its importance and urgency. There is 
only one chance to do this right. So we are grateful to the 
encouragement, input, and advice of stakeholders and oversight.
    We are fully committed to making the campaign's decisions 
research and fact-based, as well as sensitive to the counsel of 
those whose insight and experience will help improve our 
efforts. So we proactively have incorporated as many 
opportunities in the campaign's development as possible to gain 
that insight. Today we look forward to your observations and 
advice, as well as any questions you may have about this 
extraordinary effort. Thank you.
    [The prepared statement of Mr. Tarakajian follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you so much, Mr. Tarakajian.
    We will now go to our final witness, Ms. Cumberbatch. You 
have 5 minutes to make a presentation.

                STATEMENT OF STACEY CUMBERBATCH

    Ms. Cumberbatch. Good morning Chairman Clay, members of the 
subcommittee. Thank you for this opportunity to speak with you 
today about the city of New York's plans to ensure a full and 
accurate count of our population.
    My name is Stacey Cumberbatch. I was appointed by Mayor 
Michael Bloomberg to serve as the city of New York's census 
2010 coordinator. I have over 20 years of experience in public 
service, philanthropy and the law. The city of New York is the 
most populous and ethnically diverse city in the United States, 
with a population of 8.36 million people as of July 2008. Over 
3 million of New York City's residents are foreign-born, about 
one-fifth of whom arrived since 2000.
    New York City has the largest Chinese population of any 
city outside of Asia. More people of West Indian ancestry live 
in New York than any city outside of the West Indies. Over 2.27 
million Hispanics live in New York City, more than any other 
city in the United States. Non-Hispanic New Yorkers of African 
descent numbered 1.95 million in 2006, more than double the 
count of any other city in the United States. More than 200 
languages are spoken with almost one-half of all New Yorkers 
speaking a language other than English at home.
    New York City's diversity is its strength, but it also 
poses a challenge to ensure that every New Yorker is counted in 
the 2010 census. Recognizing this, Mayor Bloomberg established 
the City Census Coordinator Office to act as the primary 
liaison with the Census Bureau, leverage city resources and 
relationships to promote the 2010 census and supplement the 
outreach activities and communication strategies of the 
Regional Census Office.
    In a large and diverse city like New York, the Partnership 
Program is critical. However, there are many questions we have 
about the Partnership Program. How does the Census Bureau 
determine how many partnership specialists are assigned to New 
York City, and how they are allocated across the city? How does 
the Bureau evaluate the work of an individual partnership 
specialist as their outreach work proceeds so that gaps and 
inefficiencies in their strategies are identified and fixed 
before the enumeration? What is the process to determine ethnic 
media buys in local markets? And how is the communication plan 
coordinated with the work of the Partnership Program?
    The Census Bureau needs to adopt a more formal process of 
convening diverse local stakeholders together and engaging them 
early in the development of a comprehensive local outreach and 
communication plan so that local expertise and resources are 
included and considered. Again, I want to emphasize, there must 
be an ongoing interactive feedback process as plans are 
implemented so that local and Census Bureau resources can be 
deployed efficiently and problems can be fixed as they arise. 
While the city's population exceeded 8 million for the first 
time in 2000; the overall response rate to the mail-in 
questionnaire was 55 percent, much lower than the average 
national response rate of 66 percent. A further analysis 
conducted by the city's department of planning reveals that 
certain neighborhoods have a high concentration of low response 
rates tracked below 40 percent. These same neighborhoods had 
low response rates in the 1990 census, and in some areas, 
response rates actually got worse in 2000.
    One of our challenges over the next year is to penetrate 
these particular neighborhoods to reverse this historically low 
census response rate. These neighborhoods are largely African 
American and Afro-Caribbean. The New York City 2010 Census 
Office will make a concerted effort in collaboration with the 
Regional Census Office to work with a broad cross-section of 
leaders who can make the case in these communities of why it is 
important to be counted and participate in the census.
    The census city coordinator's office is also working with 
over 20 city government agencies to develop plans to promote 
the 2010 census through existing agency communication networks 
and activities. For example, the New York City Housing 
Authority, which manages the city's public housing stock and 
Section 8 program, has assigned a staff person to my office to 
develop and implement an outreach plan to reach 633,000 
residents. One in 13 New Yorkers receive housing assistance 
from the Housing Authority. We have already held two briefing 
sessions with over 100 resident leaders explaining the 2010 
census and providing them with information and data to focus 
their outreach efforts. This is an example of what is required 
to heighten public awareness, build trust and encourage people 
to participate in the census by filling out the questionnaire.
    Public housing resident leaders got it right away about the 
importance. They were aghast to find out that certain 
developments had response rates as low as 31 percent. Now, what 
is key here is follow-through on everyone's part to continue to 
carry the message.
    In conclusion, while the census is a Federal 
responsibility, there must be early and ongoing communication 
and accountability to local governments and communities, given 
the impact of the census on apportionment, districting and 
Federal funding. Thank you.
    [The prepared statement of Ms. Cumberbatch follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Clay. Thank you very much.
    Perhaps we can get some of your questions answered today.
    We will start with Mr. Mesenbourg. Let me ask you about, 
GAO has pointed out that a longstanding challenge facing the 
Census Bureau's marketing efforts is converting awareness of 
the census into an actual response. How do you plan to address 
this issue for 2010?
    Mr. Mesenbourg. Thank you, Mr. Chairman. We see the 
Integrated Communication Plan as our vehicle for converting 
hard-to-count populations into mail-back respondents. And it 
will approach this problem on several fronts. First of all, 
both our advertising and our Partnership Program and our Census 
in Schools Program all will focus on the hard-to-count 
population. So that is job one, to improve the mail response 
rate in the hard-to-count populations. The advertising will do 
that by providing the right message in the right language and 
the right media to those groups.
    But we understand that awareness and information is not 
enough. And that is why we are excited about the Partnership 
Program being expanded, thanks to the Recovery Act funding, to 
provide about 2,800 people that will be in the field providing 
logistical support, reaching out to a broader group of 
partnership, possible partners, and to provide the kind of 
follow-through that we sometimes lacked in 2000. So we see it 
as a very integrated program, get the message out, the 
information out through the advertising, follow through in the 
local areas, primarily through trusted voices in that 
community.
    Mr. Clay. Would you describe the procedures that will be in 
place to evaluate the level of effectiveness of partnerships as 
they proceed so that gaps in their plans can be identified and 
addressed by local entities? Will there be a real partnership 
between the Bureau and local communities?
    Mr. Mesenbourg. That certainly is the aim, Mr. Chairman. 
And we have a couple of things in place that I think that are 
going to really assist on that. One is a tool we are calling 
our Integrated Partnership Contact Database. This is new. Every 
time we partner with an organization, we will actually enter 
information on the organization, the characteristics of the 
group they represent, the number of members and affiliates that 
the group may have, whether they actually target a special 
ethnic audience, whether they are a business, an educational 
kind of facility and such. That will also lay out the kind of 
commitments that the organization has made in terms of 
supporting the census. That might encompass things as putting 
out promotional materials. It may involve establishing a 
Complete Count Committee. It will have specific actions in that 
we will then be tracking.
    But I think, in terms of how effective we are, that is a 
responsibility of the regional directors and the regional 
staff, because after all, we think the census is really a local 
phenomena. But it will be also closely monitored by our field 
division office of partnerships. And I can assure you it is 
going to be closely followed by the director, myself and our 
associate directors for decennial and field operations. The 
real proof in the pudding is what will happen with mail 
response rates and differential undercount. And that is 
something that we will be focusing on once we start data 
collection.
    But until that point, we are really going to be tracking 
very carefully the number of Complete Count Committees we have 
established. Last time we had 11,800. The goal for this census 
is to exceed that number. We have a goal of establishing 30,000 
questionnaire assistance centers, and we have a goal of 
establishing 40,000 Be Counted. And we will be tracking how we 
are doing on reaching those goals.
    Mr. Clay. Thank you.
    Mr. Tarakajian, what new information was learned from the 
Census Barriers, Attitudes and Motivators survey that did not 
previously exist?
    Mr. Tarakajian. The CBAM study was designed to give us a 
measure of what holds people back from responding and what are 
the things that we can use to motivate them to respond. We had, 
through the audience segmentation that the Bureau had done 
where the hard-to-count populations live. We took that, and we 
appended to it with an industry standard research source, 
called Simmons, the media habits of the hard-to-count and the 
rest of the population. So what CBAMS gave us was the missing 
bit of information, which is why people respond or why they 
don't respond and what is necessary to get them to respond.
    Some specific examples of how it helped us: We were able to 
segment the population into five mind-sets. And we learned, for 
example, in one of those mind-sets, which we call the head 
nodders, it is a group of people who are very, very 
impressionable to messages in the media. They may go into the 
census being predisposed to respond, but we know that their 
predisposition could change. So it has helped us because we are 
able to put more frequency against that particular target group 
in our media efforts than we might have if we hadn't had that 
bit of information. There are other groups where we have 
learned that privacy and security is not only a critical 
message, but that, in conjunction with the work that we have 
done in copy testing, has helped us to better craft that 
message so we understand precisely what the right thing is to 
say. Those are two examples.
    Mr. Clay. Let me stop you right there. Take a look at the 
map on the wall behind you. Did you find anything different in 
your study from what we have found in the map? And this came 
from the Census Bureau, that data.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Tarakajian. The map tells us where people reside. It 
tells us their location geographically, so, therefore, we can 
target our media and target our spending to them. It doesn't 
tell us why they do what they do. And the CBAM study is all 
about the why, so that we are able to then craft the media in 
terms of how we plan the media, what kinds of frequencies we 
use, what kinds of vehicles we may choose, as well as craft the 
message more precisely. That is really the value of this study.
    Mr. Clay. And when you surveyed cities around the country, 
did you get any indication why suburban areas and urban areas 
varied so widely?
    Mr. Tarakajian. I am not sure whether it is so much that it 
is somebody lives in the suburbs versus somebody that lives in 
the city as the reason why it varies. It has to do with things 
related to people's lifestyles, people's family situations as 
really the sort of first reasons why somebody might or might 
not respond. For example, one of the factors that is a critical 
factor is renting versus homeownership. Linguistic isolation 
versus being fluent in English is another critical factor.
    Mr. Clay. Renters versus homeowners, they both get mail. 
They both get the response form, so what is the difference?
    Mr. Tarakajian. Could you repeat your question, I am sorry?
    Mr. Clay. You said that one of the reasons were renters 
versus homeowners if you look at it suburban versus urban. So, 
I mean, both renters and homeowners receive mail on a daily 
basis mostly, so what is the problem there?
    Mr. Tarakajian. One difference between renting and 
homeownership is, when you own a home, you make a longer-term, 
philosophically, commitment to being in that particular 
location. If you are a renter, you might only be making a 6-
month commitment, a year-long commitment. You don't have the 
sense of ties to the community that you might. And therefore, 
you may see responding to the census as being not quite so 
relevant and not quite so important to you versus being a 
homeowner.
    Mr. Clay. And your study cost how much?
    Mr. Tarakajian. The study in total was a little over $1.4 
million.
    Mr. Clay. Thank you.
    Mr. Chaffetz, I recognize you for questions.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    My understanding is, after the 2000 census, the GAO found 
that the Bureau had, in its report back, the GAO had found that 
the Bureau had no clear guidelines or criteria for selecting 
organizations in which it would partner for the census.
    So my question, Mr. Mesenbourg, in the absence of Mr. 
Olson, we are disappointed that he chose not to be here, in 
order to become a partner with the census, is there anything 
that would preclude anybody from being--is there any criteria 
by which they cannot become a partner with the census?
    Mr. Mesenbourg. Let me start with what our criteria are. So 
we are looking for organizations that possibly had in the past 
participated. They actually know what----
    Mr. Chaffetz. I am just interested in what would exclude 
somebody from being a partner.
    Mr. Mesenbourg. Anything that would be an embarrassment to 
the census and prove ineffective to actually getting the hard-
to-count to integrate.
    Mr. Chaffetz. How do you define what an embarrassment is? 
Is that past behavior?
    Mr. Mesenbourg. No. It probably would be more in current 
behavior. I am not quite clear what you are asking, 
Congressman. I mean, there are certainly certain organizations 
that we are not going to partner with.
    Mr. Chaffetz. The question is, how do you determine which 
ones are and which ones aren't?
    Mr. Mesenbourg. Well, as we look at the Partnership 
Program, we look at it about the same way as we look at the 
census; that it should be conclusive. So we start with the 
assumption that, if an organization has good reach in the hard-
to-count areas, then we will be willing to partner with them.
    Mr. Chaffetz. But is there any criteria by which you would 
exclude somebody from partnering? If they had criminal 
backgrounds, if members had--I mean, is there no written 
criteria?
    Mr. Mesenbourg. We have the written criteria that I was 
articulating. First, what is the reach into the hard-to-count 
areas? Do they have some--do they have respect? Will they be 
listened to in those organizations? Do they have the kind of 
organization that will permit them to be viewed as a trusted 
voice? So I think the trust of the organization in the local 
community will be a key criteria.
    Mr. Chaffetz. Well, I guess that is the question, is, how 
do we define who is trustworthy? Who would be, and to use your 
words, an embarrassment? Where is that line, is what I am 
trying to get at?
    Mr. Mesenbourg. We don't have a hard line. I would say we 
start with the proposition that we should be inclusive. And if 
an organization demonstrates that they are not going to be a 
strong supporter to the census, then that would give us pause 
for continuing the partnership. At this point, of course, we 
are very early in forging these partnerships. And what most 
organizations do, they may agree to do proclamations, provide 
onsite recruiting and training sites and those sorts of things.
    Mr. Chaffetz. You can understand and appreciate there are 
some organizations out there that would draw criticism from 
some and praise from others. So there is no hard line. Based on 
the 2000 census and the recommendation from the GAO, given all 
those years, there is actually no written guidelines that say, 
``we would exclude these people.'' Even if they were involved 
in corruption, voter fraud, anything like that, would that not 
exclude somebody from participating?
    Mr. Mesenbourg. That would give us pause for consideration 
whether we should partner, if there was proof that they had 
done that sort of behavior.
    Mr. Chaffetz. As an individual or as an organization or 
both?
    Mr. Mesenbourg. Well, typically--I mean, always we are 
partnering with the organization, not with the specific 
individual within the organization.
    Mr. Chaffetz. So you would look at the actions of the 
individuals within that organization to help make that 
determination as to whether or not they had a pattern of 
misbehavior?
    Mr. Mesenbourg. We would not have the capability of doing 
that. In census 2000, we partnered with over 140,000 
organizations. It is just not practical or feasible to track 
every individual's performance within that, or should that be 
the business of the Census Bureau, I believe. If the 
organization has the respect of people in the local community 
and can help us count the hard-to-count people, then we would 
partner with them.
    Mr. Chaffetz. Even if they don't have the respect, then, by 
the same criteria, you would say, we would exclude them.
    Mr. Mesenbourg. Yes. We are looking for partners to be 
trusted voices within the local community.
    Mr. Chaffetz. What about political organizations, is that 
an acceptable, if that group is a political organization, would 
that be an acceptable criteria by which they could participate 
as a partner?
    Mr. Mesenbourg. We partnered in census 2000; we formed 
11,800 Complete Count Committees. Those committees were formed 
by the highest elected official in the town, the city, the 
State. So, in that sense, we certainly have a long record of 
partnering with political organizations, State and local 
governments, tribal governments.
    Mr. Chaffetz. How many census workers will partners be 
supplying to the Bureau overall would you guess?
    Mr. Mesenbourg. The partners will not be providing any 
persons to work on the census. They will be providing their 
expertise, their resources to help us promote our message. They 
will not be involved in census taking or census activities 
directly at all.
    Mr. Chaffetz. What are the specific penalties for an 
enumerator committing fraud?
    Mr. Mesenbourg. Five years imprisonment and/or $250,000 
fine.
    Mr. Chaffetz. Based on the last census, how many people 
actually were convicted of such a penalty?
    Mr. Mesenbourg. I don't have that figure on the top of my 
head, but I can get it for you, Congressman.
    Mr. Chaffetz. What is the legal authority or who has 
jurisdiction to actually go back and pursue somebody that you 
may believe as an enumerator may be fraudulent? Is that the 
FBI? Who pursues that?
    Mr. Mesenbourg. That would be the U.S. Attorney's Office.
    Mr. Chaffetz. The U.S. Attorney's Office, OK. And what 
mechanism do you have in place to actually, once they reach 
that threshold, to actually engage the U.S. Attorney's Office?
    Mr. Mesenbourg. We have detailed quality assurance steps in 
place that, for example, during the nonresponse followup 
operation will do a re-interview process. And that will permit 
us to identify systematic fraud being conducted by an 
enumerator. And that would be the--that would engender legal 
action being taken against them.
    Mr. Chaffetz. Mr. Chairman, I thank you for allowing me to 
go over my time.
    Let me just say in conclusion that it is very disappointing 
to know that there is no written guideline as to who would 
qualify and not qualify. I know what you are looking for. You 
want to get as many bodies and as many organizations involved 
as possible. But I find it totally unacceptable and scary, 
quite frankly, that we don't have criteria by which we can all 
agree that partnerships would either--partners would either 
meet a certain threshold or not meet a certain threshold. I 
would hope that, at your easiest convenience, you would get 
back to this committee, and me specifically, with details as to 
who qualifies and who doesn't, because there are some 
organizations on that list that, quite frankly, many of us are 
very concerned about. While certain segments of the population 
may think there is no problem, I happen to be one that thinks 
there is a problem. And I am very disappointed that, given the 
GAO report that came after 2000, that there was no followup, 
and there is no written guideline. And I think we should all be 
very concerned about it.
    Thank you, Mr. Chairman.
    Mr. Clay. Ms. Watson, you are recognized.
    Ms. Watson. Thank you so much, Mr. Chairman.
    According to the March 20th Washington Post article, ``The 
current economic crisis may threaten the 2010 census efforts to 
get a full and accurate count,'' the increase in home 
foreclosures and the rising jobless rates means that Americans 
are, indeed, leaving their homes. All the while, increased 
financial hardships may make some Americans less willing to 
cooperate with census workers.
    Now--and this is for anyone on the panel that might want to 
respond--are there any specific plans in the Integrated 
Communication Campaign which reflects this new reality? And do 
you foresee the economic crisis adding to the undercount rate 
of hard-to-count populations?
    And let me just say, I'm looking up here at some handouts--
and you probably have a copy of them--and I'm really troubled. 
Because the areas that we get the less response in the 
undercount are the areas that have been hit hardest by 
foreclosures. So, anyone on the panel, and let's just go down 
the line.
    Mr. Mesenbourg. All right. Let me start.
    Let me just reiterate that our entire communications 
strategy is focusing on the hard-to-count populations; and 
these maps actually reflect the data that we're using in terms 
of where to devote resources, both from an advertising 
perspective but also from our local Partnership Program. The 
Partnership Program is really our voice into the local 
community, and we are looking at the hard-to-count areas, and 
that's where we are going to be placing additional partnership 
staff.
    What we need are folks in the local community to tell us 
and inform us on some of the special problems that we may be 
encountering, whether they're tent cities or increasing 
foreclosure rates. That will help us shape the message; and it 
will also help us form Questionnaire Assistance Centers in 
those areas so we can reach out to that group and assist them 
on, first, reassuring them that it's safe and confidential to 
fill out the data and, second, we provide a location they can 
come to actually fill that out.
    Ms. Watson. Anybody else want to answer that?
    Mr. Goldenkoff. I would echo some of that, that the 
Partnership Program is key to getting down to the grass roots 
level, convincing people that it's OK to respond to the census, 
overcoming any barriers that they have, their fears that they 
have to respond to the census, whether it's concerns about 
confidentiality or privacy or how the information will be used. 
The Questionnaire Assistance Centers, the Be Counted Campaign 
will also be part of that as well.
    So what the Census Bureau has--and this is a good thing--is 
a series of backstopping operations, where if the Census Bureau 
misses you in one operation, they will try and get you in 
another operation. And they have several of these safety nets.
    I do want to point out, though, with the Census Bureau's 
use of numbers here, I think they use 30,000 Questionnaire 
Assistance Centers and 40,000 Be Counted locations. Now, all of 
those Questionnaire Assistance Centers will be Be Counted 
locations. So the total is not 70,000. It's actually there will 
be 30,000 Questionnaire Assistance Centers and 10,000 
additional Be Counted locations. So that number was not as big 
as was made by the Census Bureau.
    Ms. Watson. Let me just expand my inquiry here.
    In California, we have one particular town that's a ghost 
town, almost completely in foreclosure. You send something to 
that address; people are no longer there. How are we going to 
track to be able to find where this population has disappeared 
to so they can be counted? They are no longer in that town.
    Mr. Mesenbourg. So one response, if that community would 
have participated in our local update of census addresses that 
was done about a year ago, then we may have some intelligence 
about that; and those changes would have been reflected in our 
census mail list. If they haven't been, then when we go out to 
the field--or, hopefully, before we go out to the field--in 
conversations with those local communities people will tell us 
and inform us that this is a real problem issue; and then we 
can take appropriate action.
    As my colleague from GAO was mentioning, we have various 
ways that we can enumerate. One is mailing a census form out 
and hoping it comes back. Another is actually to send an 
enumerator to an address and try to collect that data right 
away.
    Ms. Watson. If they are no longer in Dodge?
    Mr. Mesenbourg. If they are no longer there, it would be 
useful for us to know that at the beginning of the census 
process. Because our normal procedure would be to mail out a 
census report form. Then we wouldn't get any response back. We 
would send another replacement form, possibly, out there. And 
then, eventually, at the beginning of May we would send an 
enumerator. And we will visit six times to make sure that no 
one is actually there. So the sooner that we could identify 
that was a problem, the better off we would be.
    Ms. Watson. My time is almost up, but let me just say this. 
I hope that if you prepare a standard, you base it on now and 
not in the past. Because we do want criminals who are back in 
the population counted. We want every individual. They exist 
somewhere, and this means resources to the community where they 
exist. So I don't think criminal records have anything to do 
with it.
    I always suggest, and I call in the Regional Director, 
where I'm located in Los Angeles, to talk about how we can 
count people. And we want people maybe like kind to go in, 
particularly with some of our ethnic communities. If somebody 
comes in looking like a process server, believe me, the 
population disappears. But if they come in looking like a 
member of the community, they are more trusted.
    We have this problem with apartments, because they will put 
two people down where there really are 12 people residing in 
there, hiding out. So I do hope that you will take into 
consideration what we need now, the undercount, and how we 
solve that problem.
    Thank you very much, Mr. Chairman, for the extra time.
    Mr. Clay. Thank you, Ms. Watson, for those pointed 
questions. I appreciate it.
    Now, Mr. McHenry, you are recognized for questions.
    Mr. McHenry. Thank you, Mr. Chairman. Thank you for holding 
this hearing, and thank you for your leadership.
    Mr. Mesenbourg, the original notice from the committee was 
a request to testify by Mr. Tony Farthing, New York Regional 
Director of the Census Bureau, and Mr. Tim Olson, Assistant 
Division Chief of Partnership for the Field Division of the 
Census Bureau, the subject matter of this hearing today. 
However, as we all can see, they are not seated next to you. 
There are two empty chairs. Are they present here today?
    Mr. Mesenbourg. No, they're not, Congressman.
    Mr. McHenry. OK. I think it's disrespectful to the 
committee for you to simply say, no, they cannot testify. Can 
you tell me why they're not testifying today? Did it not meet 
with their schedule?
    Mr. Mesenbourg. Well, actually, it's been our past practice 
that either the--well, typically, that the Director, the Acting 
Director will testify. Where we needed the expertise, we would 
certainly have had Associate Directors testify. I think it's 
been rare, indeed, where we've had grade 15 office chiefs 
testify. I believe that I have to be knowledgeable about what's 
going on in the organization; and I feel comfortable about our 
Partnership Program, where we are and where we need to be.
    The other thing that we have been doing is we've been doing 
a series of briefings on the Hill. We've been bringing in our 
Regional Directors, and we've been bringing in the appropriate 
staff for those staff briefings.
    Mr. McHenry. Well, I would certainly want a full briefing, 
and I do think it's important.
    Based on this precedent, so the Director and the Acting 
Director is the representative of the Bureau around the city 
and before Congress?
    Mr. Mesenbourg. The Acting Director--I'm sorry, 
Congressman--I believe, yes, I am representing the Census 
Bureau.
    Mr. McHenry. But that's your tradition, is that you 
represent the Bureau?
    Mr. Mesenbourg. Yes.
    Mr. McHenry. It's interesting because I just read a story 
about a forum at Brookings, and yet a division head represented 
the Bureau there.
    Mr. Mesenbourg. That's right. Frank Petrano represented the 
Bureau. Up until about a week ago, we had no presence at that 
forum. So we called the organizers and asked to send someone. 
Actually, they asked for Frank to sit on the panel that 
discussed the census.
    Mr. McHenry. So it's OK for division heads to speak around 
town, but they can't come before Congress.
    Mr. Mesenbourg. Well, I wouldn't agree to that----
    Mr. McHenry. It just seems ridiculous to me, is what I'm 
saying. We've got an individual who's going to be spending 
hundreds of millions of taxpayer dollars that we actually want 
technical answers for to make sure that we minimize the 
undercount, and they can't testify.
    So I'm going to have some specific questions. You'll 
probably end up having to talk to Mr. Olson and have written 
answers for it, and I understand. That's not to say that--
you're running a big organization. It's a multibillion dollar 
organization. Therefore, we're just trying to get the division 
knowledge and make sure we have a strong baseline of 
understanding of where we can help. That's what it's all about.
    Now, was that decision made by you to not allow them to 
testify?
    Mr. Mesenbourg. It was made by the Department of Commerce.
    Mr. McHenry. The Department of Commerce. Who is the head of 
the Department of Commerce currently? Who made that decision?
    Mr. Mesenbourg. The senior advisor to the Secretary, along 
with the communications staff down----
    Mr. McHenry. Well, there is no Secretary; there's an Acting 
Secretary.
    Mr. Mesenbourg. I'm saying the senior staff assistant to 
the Secretary-to-be.
    Mr. McHenry. Well, the Secretary-to-be wasn't sworn in when 
this decision was made. The answer was ``no'' last week, and 
there was no Commerce Secretary. He was testifying before a 
committee in the Senate last week.
    Mr. Mesenbourg. The senior political official at the 
Commerce Department made the decision. I didn't mean to say 
that Secretary Designate Locke made the decision.
    Mr. McHenry. All right. Well, so, no White House--there's 
no White House involvement in this?
    Mr. Mesenbourg. No.
    Mr. McHenry. OK. All right. Well, let's actually get to 
some substance here.
    Frank Petrano before Brookings last week said that 
statistical sampling ``is not in our current plans.''
    Mr. Mesenbourg. That's true.
    Mr. McHenry. That's true? Now, can you elaborate on that? 
It's not the current plans. Are there potential plans for 
sampling?
    Mr. Mesenbourg. Statistical adjustment has not been in our 
planning all during the decade as we prepared for the 2010 
census.
    Mr. McHenry. OK. The way he words his answer, ``It's not in 
our current plans,'' I mean, wouldn't you just say, ``it's not 
in our plans?''
    Mr. Mesenbourg. It's not in our plans, yes.
    Mr. McHenry. All right. Well, to go to some other elements 
here, Mr. Goldenkoff, certainly appreciate your reports on the 
communications efforts. It's certainly helpful to get some 
outside assessment of the effectiveness and some historical 
reference here.
    In figure one of your report, you talk about the 
undercounts and overcounts between 1990 and the 2000 census. In 
figure one, there are a number of different metrics of race and 
ethnicity of undercounts or overcounts. In figure one, there is 
a section, American Indian/Alaskan Native on reservations. 
There is a 12.22 percent undercounts in 1990 and a 0.88 percent 
overcounts in 2000. Can you speak to that, why there is such an 
enormous shift and what was done to create that massive change?
    Mr. Goldenkoff. The Bureau recognized that, following the 
1990 census, the American Indians had the most error. They were 
the largest undercounted group, I believe, of all the 
different--for the entire population. That particular segment 
had among the highest, if not the highest, undercount, so the 
Bureau put forth a tremendous effort, through its Partnership 
Program, the Tribal Liaison Program, to do a better job 
counting American Indians.
    Mr. McHenry. Could you perhaps put together something and 
explain exactly what was done? Because it seems like it's a 
great example of the Bureau's success in reducing the 
undercount. It actually created an overcount.
    Mr. Goldenkoff. Sure. What we did--and we saw some of this. 
We were out on the Menominee tribes in Wisconsin. And what the 
Census Bureau did, among other things, it had a very active 
Census in Schools program on the tribes. They had partners that 
actually came from the tribes, and significantly they came from 
the tribes that they were partnering with. And it gets back to 
the trusted voices, again, that convinced American Indians to 
respond.
    There was a paid media campaign that was specifically 
focused on reservations, American Indians. There were posters 
specifically focused and were culturally sensitive to American 
Indians.
    And just one little tidbit from that to show how the Census 
Bureau is concerned about cultural sensitivity, there was an 
advertisement, I believe, where it showed a younger person--I 
think it was a little boy--seated in front of an elder. And 
that, apparently, was disrespectful, and so the Bureau made an 
effort then to change it to make it culturally sensitive. So 
the Bureau was culturally aware. So it was really a combination 
of all these different factors--communications, as I mentioned, 
and also going out to the reservations and making sure they had 
accurate address lists.
    Mr. McHenry. Thank you, Mr. Chairman.
    Mr. Clay. Thank you.
    Mr. Goldenkoff, the committee has learned of plans to spend 
an additional $1 million of the stimulus funds to conduct more 
research. In your view, would it be wise to spend these funds 
to conduct more research, or to spend this funding as Congress 
intended, on outreach to traditionally hard-to-count 
communities?
    Mr. Goldenkoff. Certainly that's where the Bureau has had 
the most difficulty in the past, is with the hard-to-count. 
It's not a matter of getting everybody--well, folks that are 
already going to participate, it would not be a wise use of 
taxpayer money. So the Bureau needs to focus on where it 
traditionally has the most difficulty getting people to 
participate.
    In terms of how that money should be allocated, I mean, we 
certainly support the fact that the resources should be 
targeted. But in terms of how the money should be allocated 
across the different components, we have not seen any data to 
drive those particular decisions, whether money should be 
invested in paid advertising, versus more money for partnership 
specialists, versus more money for local funding, money for 
supplies and things. We have not seen any data to drive those 
decisions.
    Mr. Clay. So is data forthcoming, or is this just done 
internally? Is the Bureau directing their partners in the--I 
guess DraftFCB? Mr. Mesenbourg, tell me how these decisions are 
made.
    Mr. Mesenbourg. We looked at, as our biggest challenge, 
improving the count of the hard-to-count populations. And two 
ways of doing that was advertising, and almost all of the 
additional stimulus funding is going to go into local media 
buys, where we really----
    Mr. Clay. Excuse me. How much is the total budget for 
Communications Campaign?
    Mr. Mesenbourg. The total for the Communications contract 
is now $312 million. That includes the advertising, the 
purchase media, the public relations support through Census in 
Schools program.
    For our local and regional Partnership Program, we are 
going to invest about $280 million in that program; and that's 
going to be primarily support for the 2,800 plus partnership 
specialists and assistants we'll have in the field.
    Mr. Goldenkoff. And if I could just clarify some of the 
remarks. What the Bureau has is very good data down to the 
track level of where these hard-to-count communities are, but 
what we haven't seen is good data on where the Bureau gets the 
biggest bang for the buck in terms of return investment for 
these different components of its Communications Campaign.
    Mr. Clay. Will you make a determination of how to get the 
best bang for the buck beforehand?
    Mr. Mesenbourg. I can supplement a little bit my previous 
answer.
    One of the important lessons that we've learned in Census 
2000--and we did this through research that was conducted while 
we were in the field collecting data--was that, actually, the 
household composition and the characteristics of that household 
were key predictors of census mail-back rate.
    Before, in the 1990 census and going into the 2000 census, 
the conventional wisdom was that civic community participation 
was an excellent predictor of census mail-back response rate. 
What we found from this study was that was not the case. So the 
household types with the highest response rate were what you 
might think of as your traditional family: mother, father and 
children. The next highest mail-back response rate was husband 
and wife with no children, and so on. The group that had the 
lowest mail response rate actually were households that were 
headed by a single head of household and had children.
    Then what we did is take the hard-to-track mail response 
rates but also supplement that with the characteristics of the 
households in those tracks, and that's where we found things 
like renters have a lower mail response rate than people that 
actually owned their house.
    So I think this has been all very effective in helping us 
shape the message for 2010, and I feel that the whole 
Communication Campaign this time is much more data-driven than 
it has been in the past.
    But to answer where we make the decisions, we saw that we 
didn't think we were investing enough in the local ethnically 
oriented advertising. We are going to increase that. But if the 
advertising doesn't work, if we don't have those partnership 
people in the field mobilizing the local community, at May 2010 
is too late to start doing that now. So that was part of our 
decision.
    Mr. Clay. So there will be an emphasis put on single head 
of household?
    Mr. Mesenbourg. Yes. That is one of the five hard to--but 
what helps us, Chairman Clay, is tailoring that message to that 
group. That's what we're trying to do.
    Mr. Clay. Let me go to Ms. Cumberbatch to kind of break 
this up for a minute.
    Ms. Cumberbatch, your office provided a map to the 
committee that will be used to help guide your efforts. In your 
testimony, you said African American and Afro Caribbean 
neighborhoods with low response rates in 1990 remain low in the 
2000 census, and some actually got worse.
    Ms. Cumberbatch. That's correct.
    Mr. Clay. What are your theories about the continued low 
response rate in those neighborhoods?
    Ms. Cumberbatch. Well, clearly, whatever messaging and 
communication claim that was implemented in 2000 was not 
effective in reaching those communities. Because, based on 
results, those neighborhoods in New York City were pretty 
consistent. It's basically the lowest response rate tracks in 
New York City are throughout the five boroughs of New York City 
or are in African American and Afro Caribbean communities. 
Central Harlem, central Brooklyn, southeast Queens--which I 
want to add is actually a home-owning community with the 
highest median income in New York City.
    So, based on some of what I heard today about renters being 
low responders, the reality of New York City is a little 
different. Because southeast Queens is a home-owning community, 
as well as northwest Bronx, which is largely an African 
American, Afro-Caribbean and African community with large 
homeownership. So those two communities in New York City--in 
fact, southeast Queens, the response rates were lower between 
1990 and 2000. It got worse. So, obviously. There has to be 
some concerted effort in New York City on those particular 
neighborhoods.
    Mr. Clay. In your view, what can the Bureau do to maximize 
census participation in these traditionally hard-to-count 
neighborhoods?
    Ms. Cumberbatch. Well, from the perspective of New York 
City, the regional office for New York City actually covers New 
York City; it covers Long Island; it covers northern New 
Jersey; it covers a population of about 20 million people in 
that whole region, New York City being 8.3 million. And for 
that whole region there is something like 60 partners that have 
been hired to cover not just New York City but to cover the 
region.
    Clearly, just based on the population of New York City and 
the diversity of New York City that I outlined in terms of 
ethnic diversity, language diversity, if we are going to 
penetrate these communities with partners, clearly, there has 
to be more partners on the local level; and those partners have 
to be, obviously, from those communities, have to have a lay of 
the land of what organizations are effective communicators.
    But one of the things that needs to happen is there has to 
be a comprehensive plan at the local level. So bringing in all 
the local stakeholders--local government, local leaders--to 
say, ``OK, here's what the response rate was in 2000. Here is 
our challenge ahead.'' How are we going to map out a strategy 
using the communication strategy, leveraging what the Census 
Bureau is going to do but on the local level? What is the plan 
of action?
    And, right now, I don't see that type of plan being 
implemented in any region. In our region, I don't know if 
that's a requirement, but it seems that if you're going to have 
a strategy that's comprehensive to bringing all the resources 
you need to convene all the stakeholders and lay out that plan.
    Mr. Clay. Are you also part of the State of New York's full 
count community?
    Ms. Cumberbatch. No. Actually, I'm just from New York City.
    Mr. Clay. Just New York City.
    Ms. Watson, you may pursue.
    Ms. Watson. I just want to followup, Mr. Chairman, with 
your questioning, too.
    Mrs. Cumberbatch, I'm looking at the map I think that you 
probably are familiar with. And we can see that in a community, 
as opposed to, say, Harlem, in a community where most of these 
are homeowners, middle class, maybe even upper middle class, 
and taxpayers and so on, they have the worst rate.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Cumberbatch. Right.
    Ms. Watson. Now, who is responsible for laying out a plan 
and evaluating to see if the figures, if the data is any better 
than what it was when you took the last census?
    I am really concerned when I see a map like this--and these 
are mostly minorities. And you see that the count was really 
more effective and more reliable up in Harlem than it is down 
here. So who's responsible for planning out the strategy and 
evaluating it? Would it be you, or would it be Mr. Mesenbourg?
    Ms. Cumberbatch. Well, clearly, it's the U.S. Census 
Bureau. Because it's a Federal responsibility to do the census. 
And as a local government and as taxpayers, they are 
accountable to local government as well as all taxpayers on 
what that plan is, how detailed it is, and how does it really 
address something that has been a historic undercount and low 
response rate.
    That map was put together by the city's planning department 
so that we would have a guideline to make our efforts, in terms 
of the city's efforts; and we based it on response rates. So we 
didn't use the hard-to-count criteria, which, actually, if we 
had used it, might have excluded southeast Queens because it's 
a home-owning community. Yet the response rate shows that it's 
a low-responding community.
    Ms. Watson. Mr. Mesenbourg, would you address my question?
    Mr. Mesenbourg. Certainly. There are multiple dimensions 
we're attacking by segmenting the population. So certainly I 
didn't mean to indicate that only one of the eight clusters was 
a problem. Actually, five of the eight we would characterize as 
hard-to-count populations.
    A couple points on the Afro-Caribbean. In 2000, we did not 
do any advertising that specifically spoke to that audience; 
and that is part of the campaign for 2010, so that ought to 
help.
    The other thing we're doing is significantly expanding our 
partnership presence in New York. As was said, we actually have 
57 partnership specialists right now in the New York regional 
office. With the additional stimulus funding, we're going to 
bring in another 161 partnership staff to work on that office. 
So we'll have about 218 people. So we will have more than 
tripled it, and we think that's going to be a key initiative to 
get the message out to those local communities.
    Ms. Watson. And then the evaluation to see if your planning 
has been more effective in this decade.
    Mr. Mesenbourg. OK, I can talk to that.
    We're going to be doing real-time assessment of the 
Partnership Program in terms of how many commitments we have 
with partners, how are we doing in terms of establishing 
complete count committees or Questionnaire Assistance Centers 
or sites to do recruiting and training. And we'll be tracking 
those specific commitments.
    We also will be doing an evaluation within local areas, 
because we're going to have all of this information documented 
in a database. And then at the end of the process, we're going 
to do a systematic evaluation program--actually, the National 
Opinion and Research Center is going to do an evaluation study 
which will assess and evaluate the effectiveness of both 
advertising, partnership, and the Census in Schools program.
    Ms. Watson. Thank you.
    What's troubling to me as I look at this map of the greater 
New York area is that places where African Americans live have 
the lowest count, or the greatest undercount, and that's very 
troubling. And as I look at that map of the United States, you 
can almost read through it and see, where you have your 
minority populations, you get a tremendous undercount. So I 
would hope in this decade that we would really concentrate on 
trying to get a more accurate account.
    And in saying that, there are some who feel like we need to 
take the census out from underneath the Commerce Bureau and 
have it as an independent agency, where you could really, 
really operate independently and not be competitive with other 
huge issues that come under Commerce. What is your thought on 
that?
    Mr. Mesenbourg. As a career official, I have no opinion on 
that. We'll keep plugging along doing good methods as well as 
we can.
    Ms. Watson. Maybe we need to do something about that.
    All right. Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Ms. Watson.
    I recognize Mr. McHenry for questioning.
    Mr. McHenry. That was quite a dance.
    Mr. Mesenbourg, I don't want to beat a dead horse here, but 
what individual--was it the top political person within the 
Census Bureau that said ``no'' to division heads testifying, or 
was it the top political person at Commerce? I wasn't sure.
    Mr. Mesenbourg. It was the top political appointee at this 
point--well, a week ago--at the Commerce Department.
    Mr. McHenry. And who is that?
    Mr. Mesenbourg. Rick Wade. But I would say I supported his 
decision on that, also. I don't want to put it all on him.
    Mr. McHenry. Well, certainly you probably requested the 
answer from him, I certainly understand, being in an acting 
position.
    Mr. Mesenbourg. Yes.
    Mr. McHenry. OK. Well, let's go through a series of 
questions here about the Partnership Program.
    There's $250 million funds for the Bureau in the stimulus 
package that was specifically designated by Congress for 
outreach programs; is that correct?
    Mr. Mesenbourg. That's correct.
    Mr. McHenry. Can you tell us exactly how these groups the 
Bureau is partnering with are going to spend the $250 million? 
Can you just give some broad overview?
    Mr. Mesenbourg. OK. In terms of the stimulus money, in 
terms of outreach, we're going to spend an additional $100 
million on advertising, public relations, and the Census in 
Schools program. Almost all of that money is going to go 
toward--most of that money is going to go toward paid 
advertising. And of the additional money we're investing, 80 
percent is going to go into local media, targeting the hard to 
enumerate.
    The additional $120 million that we are going to invest in 
the Partnership Program, the vast majority of that money is 
going to go into paying people. So we're going to hire an 
additional 277 partnership specialists on top of the 680 we 
have, so we'll be close to over 900.
    And then we are going to hire 1,750 partnership assistants. 
This is the first time, the first census that we will actually 
have these partnership assistants; and they will permit us to 
extend our reach out in the local communities and also to 
provide the kind of followup that we weren't as strong as we 
should have been in census 2000.
    Mr. McHenry. OK. Are the funds given to partners awarded 
competitively, through a bidding process, or expended through 
grants?
    Mr. Mesenbourg. No funds to speak of are provided directly 
to the partners. The partners can put in a proposal, say, to 
run some sort of promotion, to ask us to provide a banner 
promoting the 2010 census. We will actually do that procurement 
ourselves. They will put in a proposal, we will review the 
proposal, and then we will actually contract to have the poster 
printed and delivered.
    There is a limit in terms of what we can do in the 
transactions. Any kind of good has to be under $3,000 and any 
service under $2,500.
    Mr. McHenry. And those things would be given basically in 
kind. You would provide materials----
    Mr. Mesenbourg. That's true.
    Mr. McHenry. That kind of thing. So are checks written to 
partnership groups?
    Mr. Mesenbourg. No. The partnership group will put in a 
proposal, let's say, to do a series----
    Mr. McHenry. So no money is exchanged?
    Mr. Mesenbourg. No money is exchanged.
    Mr. McHenry. Materials and things of that sort would be.
    Mr. Mesenbourg. Yes. We will do all of the acquisitions 
associated with that, and we will track and monitor the 
disbursement of funds.
    Mr. McHenry. One of GAO's recommendations was to document 
and audit in-kind contributions to the partnership programs. 
Has than been implemented? Do you have a program to implement 
that?
    Mr. Mesenbourg. Yes. Every in-kind payment we made, we will 
have a disbursement log and a process that will track all of 
those.
    Mr. McHenry. You described the standard products that you 
would be given in kind; and it's more of basic advertising with 
materials, is that correct?
    Mr. Mesenbourg. Typically, promotional materials to support 
the census.
    Mr. McHenry. OK. So you have a mechanism to ensure that 
taxpayer dollars--there will be an audit trail, there will be a 
trail to follow the disbursement of products and goods.
    Mr. Mesenbourg. Yes, sir.
    Mr. McHenry. Will there be a metric to determine the 
effectiveness of these funds? And I know it's difficult in the 
process to determine whether or not this banner is effective, 
but, for 2020, will we be able to look back and say that, you 
know, these dollars were spent effectively, or we should do 
more of this rather than that? Is there a metric to determine 
effectiveness?
    Mr. Mesenbourg. There's not a direct metric to do this. But 
I suppose I should put this in some context. In total, we will 
probably be expending something like about $18 million on these 
kind of initiatives, and that's out of about almost $270 
million.
    Mr. McHenry. You said $8 million?
    Mr. Mesenbourg. $18 million, out of a total of about $270 
million. I think the real assessment for 2010 with the 
Partnership Program is going to be did we improve the mail-back 
response rates in these hard-to-count areas.
    Mr. McHenry. OK. Now, determining this effectiveness, Mr. 
Goldenkoff, have you judged or have you done any analysis on 
the metrics to judge the effectiveness of those partnership 
funds?
    Mr. Goldenkoff. Our concern is that the Bureau has not done 
a good job of that, that the Bureau has not developed outcome 
measures. Many of the measures are more input measures--number 
of partnerships, for example, number of agreements--and that's 
certainly a concern of ours.
    Other things--I mean, certainly response rate is one thing 
that can be looked at, cost-in-progress milestones. Are the 
milestones being met? Are delivery dates being met? 
Satisfaction of partners, that's another outcome measure that 
can be looked at. We haven't done any intense research into 
this. These are just more options for the Bureau's 
consideration. But our concern is that the Bureau doesn't seem 
to be there yet.
    Mr. McHenry. Are there written guidelines for participation 
as partners?
    Mr. Goldenkoff. Criteria for making decisions?
    Mr. McHenry. Yes.
    Mr. Goldenkoff. No. As Mr. Mesenbourg said, there are some 
general guidelines on who the Bureau should be participating 
with, outreach into the community, that sort of thing. But, 
again, our concern is that there is no criteria that is fully 
documented, transparent, clearly defined, and consistently 
applied.
    The issue here is that if you use data from the 2000 
census, there are 140,000 partnership agreements. The Census 
Bureau gives a lot of latitude to its regional offices and on 
down the partnership specialists making those decisions. A lot 
of these people are temporary employees. They don't have the 
big picture view. So it may appear to make sense. So the very 
local level may be inconsistent with the goals and values of 
the Census Bureau. So it would certainly be helpful for making 
these decisions to have something that was much more clearly 
defined certainly, not only who the Bureau can partner with but 
who they shouldn't partner with.
    And it's not just obvious decisions, organizations that 
might be corrupt, but law enforcement organizations probably 
would not make a good partner for the Census Bureau, because it 
could raise concerns among certain communities using this data.
    Mr. McHenry. Certainly.
    Mr. Goldenkoff. And that might not be apparent when it's so 
decentralized like that.
    Mr. McHenry. Mr. Mesenbourg, this is not new what Mr. 
Goldenkoff is saying. This has certainly been written and 
shared with you. Do you have some elements that address this?
    Mr. Mesenbourg. We will commit to being more transparent in 
terms of what our criteria are going to be. We will actually 
put them to paper.
    But I think it is----
    Mr. McHenry. Is it currently not to paper?
    Mr. Mesenbourg. It is on paper, but we will document it a 
little bit more fully and share that with you.
    I think, though, as GAO states, we do leave a lot of 
discretion to the local partnership people; and I think that's 
appropriate. A key part of our message, people in the local 
community know what the challenges are in those local 
communities, not us here at the Census Bureau headquarters. And 
we will have partnerships, in a sense, with law enforcement 
organizations, in that sheriffs and police will put out a 
message that it is safe to fill your form out, that it's not 
going to be turned over to local enforcement.
    So that is often part of the complete count committee 
structure, that they may bring in some of the local sheriffs 
department, but it's all in promotional, and the whole message 
there is it's safe to fill out your census form.
    Mr. McHenry. OK. Well, if you could share that with us, we 
would certainly appreciate it. And obviously we want to make 
sure there are some metrics for determining effectiveness.
    Mr. Mesenbourg. I would agree with that. We will commit to 
that.
    Mr. McHenry. And overall criteria for partnership groups. 
My colleague, Mr. Chaffetz, had questions about these groups; 
and certain groups in particular, a number of colleagues have 
had questions about their participation as partners.
    I know we've asked this question before, but, obviously, 
there's an FBI background check for every person you hire even 
on a temporary basis.
    Mr. Mesenbourg. That's correct, and fingerprinting.
    Mr. McHenry. Does that mean that convicted felons cannot 
participate?
    Mr. Mesenbourg. That's true.
    Mr. McHenry. OK. Therefore, the question then arises, do 
you have that same type of criteria for partners and for 
partner groups in that if they have a history of problems--
problems with law enforcement, overall problems like that--that 
you would be able to say ``no'' to them?
    Mr. Mesenbourg. No.
    Mr. McHenry. You don't have that.
    Mr. Mesenbourg. No, we don't have that criteria, nor do I 
think that the Census Bureau should be involved in 
investigating organizations and the members of their 
organizations.
    Mr. McHenry. That absolutely is--I certainly respect you, 
but what you just said is absolutely ridiculous. You are giving 
the official stamp of approval that they are a partner for the 
2010 census, at which point they could have a complete reckless 
disregard for the law and their whole board of directors could 
be convicted felons, which you would not hire them, but you've 
been able to give them the stamp of approval that they're an 
official partner.
    I think it would be reasonable to have a certain level of 
criteria. And I understand the vast number of partners you're 
going to have. I'm not saying anything elaborate. I'm just 
saying a basic baseline check that when you basically put your 
arm around them and say ``you're our partner,'' that they're 
not going to do things that cause problems on census day 2010.
    Mr. Mesenbourg. I would agree with that assessment. We do 
not want to partner with groups that will cause problems on 
census day. I was reacting, Congressman, to your question that 
we somehow should be knowledgeable about all the members of all 
of these very diverse organizations; and, A, we don't have the 
capability, nor do I think that we should. We should do a scan 
in terms of how this organization is perceived in the local 
community and whether they can be effective or they will be 
ineffective in the local community.
    Mr. McHenry. I think that's what I'm asking.
    Mr. Mesenbourg. OK.
    Mr. McHenry. Some of my colleagues have concerns about 
specific groups. I have a general concern that we have good 
partners that are upstanding. And I know it's the Bureau's 
intent to do that, but I think it's the intent of Congress for 
you to have some level of standard for participants. And I'm 
not saying that you have to do an elaborate search on every 
volunteer that's associated with every group--the T-ball team, 
the city council, or anything else. Heck, that's not 
reasonable. But, at the same point, you need to have some 
baseline on a background on the group. I think that is 
reasonable.
    Mr. Mesenbourg. OK.
    Mr. Clay. Thank you, Mr. McHenry.
    Our friend from the District of Columbia has joined us, Ms. 
Norton; and you are recognized for questioning.
    Ms. Norton. I thank you, Mr. Chairman, my buddy, for this 
hearing, but I'm more inclined to say, what possessed you to 
hold such an important hearing on Monday when nobody but 
Eleanor and a few other souls would be here? This is the most 
important issue facing the census.
    And I apologize to the witnesses. I had intended to be here 
the full time. I was speaking in the city. At least I could 
have been here. But I certainly wanted to come to hear what I 
could.
    I am so pleased that the President put $1 billion in the 
stimulus package to cease the slow walking of the census that 
almost guaranteed an undercount. The census was stolen before 
it started. And it seems to me that those who speak about the 
Constitution ought to bear in mind that the first thing that 
the framers thought you ought to do is find out who is here.
    And everybody here came as an immigrant, or virtually 
everybody, and they are aware that if government doesn't know 
who's there, government doesn't know anything. So I was very 
concerned.
    I am Chair of the subcommittee that is now, hurriedly, 
trying to find office space all around the country; and this is 
very difficult office space to find because this is short-term 
office space. So I am handling GSA, who says it's different, 
but these folks need some place to rent, even for a couple of 
years. So we've been set back in many ways.
    What I was most concerned about is how late lots of things 
are. This should be a 10-year funding and preparation matter. I 
am pleased that the census does update itself so that in some 
ways you get a sense of where the country is. I certainly hope 
that in updating yourselves you do a better job than what some 
large cities found.
    This city, for example, the Nation's Capital, found new 
housing bursting out all over, people moving in with a $5,000 
homebuyer credit that nobody else in the country had, and the 
census was continuing to count us losing population. You know, 
there are some things that common sense will tell you is not 
the case.
    When then Mayor Anthony Williams pressed the case, 
efficiently, an updated census was done to show that the 
Nation's Capital, in fact, is growing. Very, very bothersome, 
since these are supposed to be statistical experts and since 
the updating is supposed to help us count better.
    I understand--and, indeed, would agree with my good friend 
from California about the independent status. Indeed, I felt in 
company with those who somehow--needed the census in the White 
House. Watch what you ask for. The more independent the census 
is, the better off we are. I'm not sure, it would be 
interesting to trace how that would be, putting it in a 
department, since this, above all, is a part of the government 
which you do not want people questioning based on their 
political predilections.
    I have great respect for the professionalism of the civil 
servants in the census. That's one of the reasons why I was 
chagrined when the census had a hard time counting what really 
are a few people; the District is about 600,000 people. It made 
me wonder, what would happen if this were New York, where I 
lived for a good part of my life--Washingtonian--though I did 
find that where I lived, on 144th and Amsterdam, is among those 
with the dark spots here. Why should I be surprised?
    But that makes the undercount really the only issue, people 
who fear to be counted, aren't used to being counted, aren't as 
well educated as some other parts of the country. And now we 
have a terrible structural change in our economy. People are 
having to move in with other people just to survive. I hope the 
census is making adjustments for the fact that we don't even--
if people are having to double up and triple up.
    I really feel for the undercounted Latinos. There has been 
a real witch hunt conducted for many years. That's how Latinos 
perceive it. So that we found it was having an effect on people 
who are perfectly legal.
    It's very easy to misread Members of Congress who have some 
power who seem to go after immigrants. And this cannot possibly 
help the census, who have been slow to get money--the President 
is trying to make up for it, and you are left with having to do 
a real count, or you're going to hear from a lot of us.
    I've got to ask you about the confusion on race. Now, this 
morning's Washington Post, ``Multiracial Peoples to Be Counted 
in a New Way.'' And my question really goes to how much the 
census coordinates with other agencies.
    There is good reason for localities to want to know 
something more about people's racial identity, but I wonder if 
you understand what this could produce. The racists who decided 
that if you had one drop of Black blood you were Black at least 
did us a favor, unlike those in the Caribbean, who then decided 
to subdivide themselves on how much of various ethnic blood 
they had in them still suffer from that. If you go to Haiti and 
virtually every part of the Caribbean, you see not only the 
Black-White caste system, you see the Black, not quite Black, 
not quite White. You have castes within castes. It's a 
terrible, terrible problem. So I know the people who said one 
drop didn't think they were doing us any favor, but in a real 
sense they did. Now we are becoming a multiracial country. But 
whether people know what that means is something the Census 
Bureau, being scientific, better watch out for.
    During the worst days of segregation, one of the most 
pitiful, pitiful parts of the Black community was how many 
people wanted to reach for other kinds of ethnicity that they 
said were part of theirs.
    The Washington Post cites Barack Obama as reflecting what 
we're talking about. It doesn't reflect it at all. It reflects 
the evolution of a country now led by a President born of a 
White Kansas mother, a Black Kenyan father. The man's Black 
because he has chosen his race.
    By the way, he didn't have any choice. There are people who 
would have a choice. It seems to me they ought to be able to 
choose their race, too. But the notion that I'm going to choose 
eenie, meenie, miny, mo--and my grandmother always told me that 
there was this Indian and that White man and this Mexican, so 
why shouldn't I claim them all? I'm proud of all of them, don't 
know a one of them.
    The confusion that is going to have no lineage, no 
understanding, word of mouth. So we had these five racial 
categories--American Indian or Alaskan Native, Asian or Pacific 
Islander, or Hispanic, non-Hispanic, Black or non-Hispanic 
White. Now the school system may want to know some more 
information, but I need to know what the census wants to know.
    For example, they found that, in Hispanics, one of the most 
multiracial people in the world can get very confused. And then 
when they mix in and decide that they will call themselves 
White, then the school system doesn't really know if it's 
dealing with a person from a family that doesn't speak English 
or not. So I can understand why the school system may want to 
know this.
    So the Education Department is saying, ``hey, look, 
different strokes for different folks.'' We're going to give 
flexibility, new rules. We're going to give States flexibility 
in these existing racial and ethnic categories of No Child Left 
Behind, creating a double coding for certain students.
    I don't object to that. But if you do not--if we go into 
the notion of asking people, for census purposes particularly, 
to ferret out their lineages, I am beginning to wonder what you 
are. None of us are completely African. We are proud to be 
called African American. And you can't even tell who we are by 
looking at us. Who people say they are is the first important 
thing. There may be subgroups of information that would be 
helpful, such as what their immediate family, immediate mother 
and father was, so you have some sense of whether you are 
talking about first generation or not.
    And I am the first to concede that States need different 
information based on their population, but I need to know what 
the census is doing and what it says to people as they go and 
say, you know, ``tell us what you are.'' And, of course, you 
can say anything you want to. That is who you are. I don't 
think anyone else should be able to describe you--certainly not 
the way the southerners decided to describe Africans who were 
here, or people who had very little African blood.
    But I need to know whether we are all now mixed up about 
this as well and how you intend to deal with this. Let it all 
hang out. Anything that you said you were anywhere back in your 
lineage, just claim that and we will know who you are.
    Yes, sir.
    Mr. Clay. Mr. Mesenbourg.
    Mr. Mesenbourg. Thank you.
    First of all, in terms of how we're going to collect data, 
we're going to collect data on two things: Ethnicity, Hispanic, 
non-Hispanic. So Hispanic is actually not viewed as a race. 
It's viewed as an ethnicity. So the question will ask for every 
person, and as you rightfully say, this is self-designation. So 
it's how people view themselves.
    So the first question, we'll say, is person one of 
Hispanic, Latino or Spanish origin? No. And then, yes, they 
will ask a little bit about their ancestry--Mexican, Puerto 
Rican, and so on. So that is the question that identifies 
Hispanic origin.
    The next question----
    Ms. Norton. Do they then ask them whether they are Black or 
White?
    Mr. Mesenbourg. Yes. So that's question 8 of the 10 
questions we're going to ask about every individual.
    Question 9 will say, what is person one's race? Mark one or 
more boxes. So they can mark more than one box, but it's White, 
Black, African American, and American Indian or Alaskan native. 
And then there are breakouts of Asian, Asian Indian. All of 
these boxes or categories are established by the Office of 
Management and Budget, and we are following what those 
guidelines are on race and ethnicity. But it's up to the 
individual to characterize themselves of Hispanic or non-
Hispanic origin, and then there is the race question.
    Ms. Norton. So this is the same categorization you used in 
the last census?
    Mr. Mesenbourg. This is basically the same 
characterization. There was some research done to better ask 
some of the components and some of the categories, and we have 
implemented that. And we will be doing additional testing in 
our experimental program in 2010 to refine some of the concepts 
and definitions.
    Ms. Norton. How about the agencies? I was confused as to 
how the Education Department, does it collect this data from, 
where they say, you know--have this flexibility?
    Mr. Mesenbourg. The race and ethnic categories are 
established by the Office of Management and Budget, so all 
Federal agencies should be following the----
    Ms. Norton. So what does this story in the Post mean? 
According to the story in the Post, ``The rules will give 
States flexibility to leave existing racial and ethnic 
categories for No Child Left Behind, creating a double coding 
for certain students.'' A student may be counted as Black for 
some purposes and Hispanic for others. Bless him.
    Mr. Mesenbourg. I think that's referring to State. So 
States and localities----
    Ms. Norton. But this is the new rules for the Department of 
Education. So they're on their own on that, in other words?
    Mr. Mesenbourg. I really don't know. I don't know what 
they're planning to do.
    Ms. Norton. So you don't coordinate what agencies do. You 
speak only for the census, and that's how you count.
    Mr. Mesenbourg. The Office of Management and Budget has 
oversight responsibilities in terms of what Federal agencies 
are doing. So Education should have worked with OMB on the race 
and ethnicity standard.
    Ms. Norton. Thank you. And thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mrs. Norton.
    Wow, what a far-reaching, wide breadth of questioning, 
consistent with your background as professor and lecturer. And 
we appreciate your participation today.
    And, as you mentioned earlier, why would we have this on a 
day like this? It's because we knew that key legislators, such 
as yourself, would be able to be here along with the other 
people that are here. So thank you so much.
    Let me just wrap up on questioning here and ask, you know, 
the committee has reviewed preliminary plans for spending 
stimulus money on the Communications Contract. Mr. Tarakajian, 
you have $10 million allocated for local buys in the Black and 
Caribbean markets; yet you have $13 million allocated for the 
Hispanic and Asian markets. Given the historical undercounts in 
the Black and Caribbean population, would you please explain 
the disparity in funding allotments?
    Mr. Tarakajian. The stimulus money has to be looked at in 
conjunction with the base plan money that is allocated by 
audience. So if you look at the entire $312 million, what we 
are planning to plan against is $39 million for Hispanic, $36 
million for the Black audience and approximately $27 million 
for the Asian audience.
    And I stress that these are planned at this point in time; 
we have not put pencil to paper to complete the plans with the 
addition of the stimulus money as of yet. Once we do that we 
will absolutely take a look at how these numbers work and 
whether we believe, and our subcontractors believe, that this 
is the correct allocation, but this is a starting point.
    Mr. Clay. OK. A starting point is fine. I just wanted to 
make you aware that, historically, the Asian population has 
been overcounted. So I was kind of curious as to why we would 
direct so many resources to that population.
    Mr. Tarakajian. The reason for adding resources to the 
Asian population is really from the planning process that we 
have been through so far. We have asked all of our 
subcontractors to come up with a list of what they would do if 
and when there were additional moneys that were available to be 
spent against their audience. And one of the things that our 
Asian subcontractor, the IW Group, noted was that they wanted 
to expand from the existing group of languages that they were 
going to run their campaign into a broader group. And adding 
the languages is an expensive proposition because these are 
small populations with very limited media outlets.
    So we have started along that path. As I said, it is 
planned, it is primary. We are going to take a look at what 
those plans look like and then come back with a final 
recommendation.
    Mr. Clay. Be sensitive to hard-to-reach and hard-to-count. 
Thank you.
    Mr. Mesenbourg, would the Bureau be willing--we made 
references to these maps. Let me ask you, would the Bureau be 
willing to be create maps like this for Members, representing 
traditionally hard-to-count constituents for all Members of 
Congress in an effort to better partner with the Bureau on 
reducing the count?
    Mr. Mesenbourg. Certainly, Mr. Chairman.
    Mr. Clay. OK. Thank you so much.
    And I will ask--let me recognize Mr. McHenry because he 
wants to finish up, too. Mr. McHenry will be recognized for 
questions.
    Mr. McHenry. I certainly appreciate it.
    Mr. Mesenbourg, what do you expect out of the Partnership 
Program and what does the Bureau expect the partners to--you 
know, the role they are supposed to play.
    Mr. Mesenbourg. The bottom line what I expect out of the 
Partnership Program is an improved mail response rate, 
especially in the hard-to-count areas. That is really going to 
be the test of how effective we have been. We are looking for 
partners to basically cover the landscape in terms of 
representation and reach in the local communities, and that 
could involve government. So we will certainly be dealing with 
State and local governments, we will be working with mayors, 
both of cities and of towns, we will be dealing with the entire 
education community, both K through 12, which will be the focus 
of the census in schools, as well as postsecondary.
    Mr. McHenry. And what do you think the partners expect out 
of it?
    Mr. Mesenbourg. Well, part of our message to the partners 
is, the census is inclusive, the census is important, it is 
going to be used for legislative representation, and it is 
going to be used for Federal funds distribution, over $300 
billion a year. Most of the partners get that there is a real 
stake in counting everyone, that it affects them both from a 
political perspective, as well as the kinds of funding that are 
going to flow into the local community.
    Mr. McHenry. Now, there have been a lot of reports about 
concerns to the faltering economy and that the tough economic 
times we are facing will make the 2010 census more difficult, 
since people are losing their homes and their jobs and may be 
in the process of moving or living with other people, and just 
moving to different locations, that it might be harder to find 
and enumerate these people.
    What are the Bureau's plans to address this concern? I know 
it is a very new concern. But if you could, touch on what your 
plans are and perhaps where you are in the planning process.
    Mr. Mesenbourg. OK. I would be glad to.
    Well, I think the degree of the problem is a new problem. 
So we are going to--we actually have started doing our address 
canvassing operation. So that is the first key production 
activity in the census where we are going to walk every block 
in the United States and validate and update the addresses. So 
the first critical step is to make sure we have a complete and 
comprehensive address list.
    At the same time we are rolling out our Partnership 
Program. And as I said, we will be going from about 680 
partnership specialists; we will be increasing that by 2,000. A 
key part of that job is to get into the local communities, talk 
to the people in the communities and find out the severity of 
some of these programs. They can help a lot in that activity.
    Then we need to really get trusted voices in the community 
to inform and educate people that if you are doubling up with 
somebody, it is safe to respond and that you should be listed 
on that census form. So all of this will be part of the 
messaging.
    But we think a key part of that is to have those trusted 
voices in the community making that message. We will be doing 
it through advertising and through our own promotional 
materials, but we really think the local minister can be a lot 
more effective and convincing.
    Mr. McHenry. Has this been addressed and added to the 
integrated communications plan?
    Mr. Mesenbourg. Yes. This is one of the challenges that we 
are facing when we look at the clusters of the population.
    One of the variables is the amount of occupied housing in 
the area, and as that becomes--as that number decreases, we 
know we have an additional problem that we need to address.
    Mr. McHenry. And Mr. Tarakajian, has that been a part of 
your process in updating the plan?
    Mr. Tarakajian. Yes. We have a budget line item in the plan 
called rapid response. And what that is designed to do is, as 
we start to get mail returned and we see what areas of the 
country or markets are lagging in terms of return, we can then 
allocate moneys to those areas to help bolster return. And our 
plan was to put an additional $2 million of the stimulus 
funding in the rapid response in response to this issue that 
you point out.
    Mr. McHenry. OK.
    Now, Mr. Mesenbourg, how many partners, your partners, how 
many employees do you think they will help produce for you, 
temporary workers and enumerators?
    Mr. Mesenbourg. Well, they are not going to provide really 
any temporary workers for us. What they will provide is a much 
greater reach in getting the message out to people. So I can 
give you a couple examples of that.
    In the business community, one of the areas that we will be 
reaching out to are the utility companies that basically reach 
everyone in a locality. So one of the things that they have 
done in the past, and we will be asking them to do again, is to 
put messages on their statements, on their envelopes, 
encouraging everyone that gets one of those utility bills, 
whether telephone or heating bill and so on, to participate in 
the census.
    The last time we were very successful with big corporations 
such as Wal-Mart and Target to actually do promotions in their 
stores and to provide assistance centers if they have the space 
available.
    So we will be doing a whole host of things like that. So it 
is primarily helping us reach the hard-to-count and getting the 
appropriate message out to them.
    Mr. McHenry. Is there any element of the Partnership 
Program to help produce enumerators?
    Mr. Mesenbourg. The partners, many of them, will agree to 
provide space for recruiting. They actually won't be doing 
hiring, but they will donate space and we will have a Census 
Bureau employee there taking applications for the jobs. And 
after we hire people they will be providing sites that we can 
actually do training on.
    Mr. McHenry. Now, for the program to hire enumerators for 
areas that have been traditionally hard to count or a higher 
nonresponse rate technically, would it be engaging those 
community partners to help produce folks in the neighborhood or 
folks in the community to be enumerators? Is that part of the 
program?
    Mr. Mesenbourg. They can assist with the recruiting 
process. Typically, probably where they will be more useful is 
going into the local communities as we are starting to hire 
additional partnership specialists and partnership assistance. 
Those local communities can provide us the names of people that 
they think are trusted voices in the community and are in the 
market for the job.
    They will have to go through the interview process and the 
testing process like everyone else.
    Mr. McHenry. Now, with the additional folks that you are 
hiring for the partnership groups, is there a way to verify the 
efforts and the work that they are doing in the community? Do 
you have metrics for that?
    Mr. Mesenbourg. Certainly.
    Well, first, they will have to go through all the 
appropriate clearances to make sure that they are OK. Each one 
of them, as they make commitments--well, they will have goals 
in terms of what they are supposed to do; and then they will 
enter those commitments in this integrated partnership 
database, and both the regional staff and headquarters staff 
will be monitoring that process.
    Mr. McHenry. As a part of the 2010 advertising effort in 
communications, broader communication efforts, are there plans 
for the Bureau to visit editorial boards and newspapers?
    Mr. Mesenbourg. Certainly. That will be a part of our 
outreach to the media.
    Mr. McHenry. Is that your understanding as well, Mr. 
Tarakajian?
    Mr. Tarakajian. Yes. In fact, our subcontractor, Weber 
Shandwick, which is a public relations company, is assisting 
the Bureau in that effort.
    Mr. McHenry. And what is the purpose of these meetings?
    Mr. Tarakajian. It is really to get the message of the 
census out there, make sure that there is an integrated 
message, that everybody is on point and that it happens at the 
point in time when it is most beneficial to the communications 
effort.
    So it is an overall integrated approach.
    Mr. McHenry. So it is a message of participation?
    Mr. Tarakajian. It would vary depending upon what the 
particular medium is. But, yes, it would be primarily a 
participation message. It could be, in its early phases, an 
awareness message.
    Mr. McHenry. OK. An awareness or participation; is that 
correct, Mr. Mesenbourg?
    Mr. Mesenbourg. Yes, sir--and importance, why it is 
important to participate.
    Mr. McHenry. I certainly appreciate it. I appreciate your 
testimony today, Mr. Mesenbourg.
    I know I had some tough, direct questions from the 
beginning because we do want participation in transparency in 
this process. But I do thank you for your leadership of a very 
challenging and large government program that is very important 
to all Americans. Thank you.
    Thank you, Mr. Chairman.
    Mr. Clay. Ms. Watson is recognized.
    Ms. Watson. I want to go quickly because I do know you have 
other places you need to be to carry on the focus of the 
census. Thank you for recognizing me. And I want to address 
this in followup with Ms. Cumberbatch.
    I am looking at this map of New York, and I am kind of 
appalled. Tell me what you have been able--the kind of contact 
you have been able to have. Do you have the resources to do the 
job? And do you think your position should be a permanent 
position? And can you respond, because I am really concerned 
about this area here on this map that--I think all of you have 
a copy--and the fact that in 2010 we still think there will be 
an undercount.
    Ms. Cumberbatch. First, let me start off by saying I am an 
employee of the city of New York, so my position is not a 
federally funded position. It is a decision that has been made 
by the mayor of the city of New York that this is such an 
important endeavor that impacts the city that it is important 
to have someone as a coordinator.
    My office doesn't have a standing budget, so what I am 
doing is getting staff on loan from other city agencies who 
have connections in different neighborhoods.
    Ms. Watson. I am just asking, can you propose a budget to 
the Census Bureau?
    Ms. Cumberbatch. Absolutely. And I think one of the things 
that has to happen is that since my office was created just for 
the 2010 census, it needs to be at local levels, where there 
are hard-to-count communities, a process where perhaps there is 
a permanent person or small office that starts dealing with 
these issues or locality way in advance of the actual census.
    So, for example, one of the communities there is central 
Brooklyn, Bed-Stuy. But someone could have been in place at the 
local level to start cultivating those relationships far in 
advance of the census to start really penetrating.
    So in many respects it takes a huge effort in a very short 
period of time to turn around those low response rates. Now, 
perhaps if resources had been made available much--early on, 5 
years ago, 6 years ago, knowing that there was a low response 
rate in 2000 and a low response rate in 1990, we would be in a 
different place in terms of turning around some of those 
communities.
    So, yes, I think there needs to be a Federal commitment at 
the local level to those areas in terms of staffing, not just 
for the purpose of the census when it comes up in terms of a 
Partnership Program now, because partners are being hired now 
for censuses next year. But if people were in place a few years 
before to start making those relationships and start really 
penetrating those areas, I think we would really be in a 
different place.
    Ms. Watson. Just to followup, do you think this ought to be 
a local position within the New York area or should it be a 
Federal position; or should they recommend to the local, the 
regional, that we make this a permanent position.
    Ms. Cumberbatch. I think it should be a local position 
within the city government or whatever governing locality rules 
in that particular area. Because at the end of the day the 
results impact that area most, that government executive most, 
in terms of Federal funding. So there is no input until close 
to the census in terms of more of an advisory input. There is 
no ongoing input into what outreach needs to happen for that 
locality to get a higher count and a full and accurate count.
    Ms. Watson. Well, you know, New York is the city that is 
known around the globe. When people come to the United States, 
they come to New York; and we are--the second stop is to get to 
my district, Hollywood.
    But I would think this being the largest population and 
probably the most well-known place, you should have the best 
count and the resources. And they need to be appropriated, as 
you are saying, long before we get to the actual taking of the 
census. And so I am hoping that you are conveying this in a 
proposal to the Census Bureau so you can get the proper 
resources, so this famous and well known city around this globe 
will have the proper governmental support in program, will have 
the proper count in terms of positions in this government and 
the proper resources to make it effective.
    So I would hope that you would present a proposal----
    Ms. Cumberbatch. Absolutely.
    Ms. Watson [continuing]. To the Census Bureau. Thank you 
very much.
    And thank you, Mr. Chairman. And I know that we are way 
over time.
    Mr. Clay. Thank you, Ms. Watson, for that questioning.
    And, Ms. Norton, we are going to let you have the final 
say.
    Ms. Norton. I am sure there is no place that the chairman 
has to be that is more important than chairing this.
    Mr. Clay. You are absolutely correct.
    Ms. Norton. What would I do without the chairman to kid?
    But I did want to ask Mr. Mesenbourg one last question. Mr. 
Mesenbourg, I looked at page 3 of your testimony, and I tried 
to do some fast arithmetic. I don't know how to judge the total 
in the original contract of $212 million. The reason I look at 
it is because, to the chagrin of all of us, the written word is 
out of fashion. More people knew about the D.C. Voting rights 
simply by what is on the Colbert Report than anything read or 
any scholarly thing that might be coming out of my mouth. So I 
think we have to assume that, educated and not, people rely on 
the media; it is very dangerous, but that is the way it is. 
Indeed, when the language has now been reduced to ``twitters,'' 
you had better be working on one.
    So I looked at where I think most people get whatever 
information they get. So I have no judgment to make of $212 
million. It looks right to me, but who am I since it is the 
original communications contract, the whole contract. So that 
is print and other media.
    What is your whole budget, sir?
    Mr. Mesenbourg. Well, actually the $212 million was the 
original contract. Thanks to the stimulus, it is $312 million.
    Ms. Norton. Wow. But again, I don't know how to judge that 
either, so I will just go on to hard-to-reach. If it is hard-
to-reach people who graduated from college with information, I 
am assuming it will be even harder to reach the hard-to-reach. 
$170 is directed to paid advertising, so I looked at that 
figure. So that means $42 goes off the top to somebody because 
it is not directed to the content.
    Then, if you continue to count, you get to 52, the mass 
communications component to reach all persons who consume media 
in English regardless of race or ethnicity. I don't even know 
what that means, because we again, much to my chagrin, live in 
tribes, you know people communicate through Hispanic stations, 
they are Black and they speak only English, but they don't 
listen to anything except Black stations. Too bad, but again I 
am giving you the way I believe it is.
    So OK, for all of these people, and this leaves the 
impression that it is across the board, so it said ``all of 
those,'' regardless of race or ethnicity. So it would mean that 
if you listen to an all-news station--or maybe that isn't what 
you mean, regardless of race or ethnicity as opposed to 
breaking that down further. Then it says $52 million.
    So we start with $212 million and $52 million of the total 
is planned for media buys. What in the world are you doing with 
the rest of the money? The way I counted, you start with $91 
for direct media buys, and that looks like it is print as well 
as forms of media that people actually use to get information, 
regretfully. Then $52 million is for direct media buys. And I 
simply have to ask you how--one, justify the total figure for 
reaching the hard-to-reach; and, two, where will these media 
buys occur in order to reach people where they listen to 
information or read information?
    Mr. Mesenbourg. I apologize. I think my written testimony 
contributed to the confusion, so maybe I can take a moment to 
try to clarify.
    Ms. Norton. Thank you.
    Mr. Mesenbourg. So the $312 million is the total contract.
    Ms. Norton. Out of the total budget of----
    Mr. Mesenbourg. Out of--the entire life cycle is between 
$14 billion and $15 billion.
    Ms. Norton. So how did you arrive at $312 million out of 
$14 billion or $15 billion budget for media buys?
    Mr. Mesenbourg. The $14 billion to $15 billion is across 
the 10-year life cycle of the census.
    So, in 2009, we had a budget of about $2.7 billion, and we 
are going to be getting an additional $4 billion in 2010. And, 
of course, we have the stimulus funding. So in terms of 
content, we think this is what we need to do the advertising.
    In inflated terms, this is a greater budget than we had in 
the 2000 budget.
    Ms. Norton. What was the budget in the 2000 census?
    Mr. Mesenbourg. $262.
    So we are at $312 right now, and so of the $312, $258 
million will be spent on paid media. That includes production, 
labor and so on.
    Ms. Norton. Of the $312----
    Mr. Mesenbourg. $258 million is directed toward paid media, 
and that includes production and labor in terms of creating the 
content. So in terms of our actual advertising buys, it is $145 
million, and $62-$63 million--these are preliminary estimates--
will be directed toward the national market.
    The national market--what I meant to explain there is, if 
you consume media in English, then the national campaign will 
reach you----
    Ms. Norton. Well, how is that broken down?
    Mr. Mesenbourg. It is going to--the national campaign is 
going to be national, so it is aimed at people that consume 
their media in English, regardless of their race or their 
ethnicity.
    Ms. Norton. Mr. Mesenbourg, OK.
    So you mean there is a national and a local?
    Mr. Mesenbourg. Yes. And the local is about $83 million. 
And that is aimed at reaching ethnic local audiences in the 
right media, whether TV, radio, print, newspapers, magazines, 
but it is going to be very targeted.
    Ms. Norton. Could I ask you to get to the chairman of this 
subcommittee a breakdown, as finely as you can, of how that 
media buy.
    I opine on something I don't know, but I do believe that 
the best way to reach the--to disabuse people that the 
government is coming after you when the Census Bureau comes is 
to have a friendly voice--not from the census, if I may say 
so--some friendly community voice that speaks the language or 
speaks the lingo and can speak credibly with the community.
    Now, I regret this, but these communities are divided. And 
listen, this is maybe the decline and fall of America, but when 
you have everybody listening to only what they want to hear and 
to voices, you wonder how you are going to keep together a 
country. But that is how it is.
    So it is broken down in terms of class, it is certainly 
broken down in terms of race. And, of course, the hardest to 
reach and, it seems to me, deserved a disproportionate amount 
of the money are those who speak another language, especially 
Spanish. And that is where I fear the greatest undercount among 
the most rapidly growing part of our population.
    I think that we already have scared the bejesus out of many 
of the legal Hispanics who have been here for a long time and 
just don't want to have anything to do with the government.
    So I believe that you would guide the subcommittee to have 
confidence in what you are doing with your media buys as 
between print, and broken down even in the print and other 
media, if we could have a further breakdown from you, sir.
    Mr. Mesenbourg. Certainly.
    Mr. Clay. Thank you so much, Ms. Norton. And, as usual, she 
got the last word.
    That concludes this hearing, and there will be plenty to 
follow. Hearing adjourned.
    [Whereupon, at 12:36 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
